<html>
<title> - STOPPING THE NEXT ATTACK: HOW TO KEEP OUR CITY STREETS FROM BECOMING THE BATTLEGROUND</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 STOPPING THE NEXT ATTACK: HOW TO KEEP OUR CITY STREETS FROM BECOMING 
                            THE BATTLEGROUND

=======================================================================

                                 HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2016

                               __________

                           Serial No. 114-87

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
             
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-269 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1176617e517264626579747d613f727e7c3f">[email&#160;protected]</a>                            
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Art Acevedo, Chief of Police, Austin, Texas:
  Oral Statement.................................................    10
  Prepared Statement.............................................    13
Mr. Michael J. Bouchard, Oakland County Sheriff's Office, Oakland 
  County, Michigan:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Jerry L. Demings, Orange County Sheriff's Office, Orange 
  County, Florida:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Mr. John Miller, Deputy Commissioner, Intelligence and 
  Counterterrorism, New York City Police Department..............    28

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article........................................................    57

                                Appendix

Questions From Ranking Member Bennie G. Thompson for Art Acevedo.    65
Questions From Ranking Member Bennie G. Thompson for Michael J. 
  Bouchard.......................................................    65
Questions From Ranking Member Bennie G. Thompson for Jerry L. 
  Dem- ings......................................................    66
Questions From Ranking Member Bennie G. Thompson for John Miller.    66

 
 STOPPING THE NEXT ATTACK: HOW TO KEEP OUR CITY STREETS FROM BECOMING 
                            THE BATTLEGROUND

                              ----------                              


                     Wednesday, September 21, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:19 a.m., in 
room 311, Cannon House Office Building, Hon. Michael T. McCaul 
(Chairman of the committee) presiding.
    Present: Representatives Smith, King, Rogers, Duncan, 
Perry, Katko, Hurd, Carter, Loudermilk, McSally, Ratcliffe, 
Donovan, McCaul, Thompson, Jackson Lee, Langevin, Higgins, 
Richmond, Keating, Payne, Vela, Watson Coleman, Rice, and 
Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The purpose of this hearing is to receive 
testimony on stopping the next attack, in keeping our city 
streets from becoming the battleground.
    I now recognize myself for an opening statement.
    This weekend, our Nation was shaken by terrorist attacks in 
Minnesota, New York, and New Jersey. We are thankful that no 
one was killed. Our thoughts and prayers go out to the injured 
victims and their families.
    We are still searching for answers in this investigation. I 
appreciate your police department, Deputy Commissioner Miller, 
being here today to update us on this case. Sir, thank you for 
being here today.
    Mr. Miller. Thank you, Mr. Chairman.
    Chairman McCaul. Our hearts go out to the good people of 
New York.
    The threat environment is as high as we have ever seen it, 
especially from radical Islamist extremists. Last year, this 
committee tracked the most home-grown jihadist plots ever in a 
single year in the United States, and 2016 could be even worse.
    Americans are rightfully worried that our city streets are 
once again becoming the battleground. Fort Hood, Boston, 
Chattanooga, San Bernardino, Orlando. Some have said this kind 
of regular terrorism is the new normal. But I strongly reject 
that argument. Complacency is not an option. Terrorists are 
threatening American lives, our livelihood, and our way of 
life. We cannot falter with so much at stake.
    That is why yesterday I released a National strategy to win 
the war against Islamist terror, with proposals for fighting 
the enemy overseas and stopping radicalization in our 
communities. My strategy explains that one of our highest 
priorities must be to make sure our front-line defenders are 
better prepared to stop acts of terror. This means the police, 
fire, and other emergency professionals need to be able to 
detect suspicious activity and catch potential terrorists 
before it's too late. If a plot goes undetected, they must be 
equipped to respond quickly to prevent loss of life. We saw 
that play out this weekend when our first responders acted 
heroically to protect their fellow citizens.
    So to the witnesses testifying today, I want you to know 
that this committee is grateful for your service to our 
communities and your sacrifices for our country. I also want to 
convey one message above all else, and that is that we have 
your backs. We are committed to give you the tools to fight 
terror. We are also committed to giving you the public support 
that you deserve in these challenging times.
    It has been a hard year, especially for law enforcement. 
You have faced tough questions in the press, and you are 
staring down violence in our streets every day. That is why 
this committee has fought to protect important DHS grant 
funding that you rely on. In fact, later today, the House will 
vote on my bill to authorize an additional $30 million in 
annual grants to help your communities guard against the 
dynamic terror threat, including active-shooter attacks, IEDs, 
and suicide bombers.
    We have pushed Federal agencies to share intelligence with 
you and share it more quickly and comprehensively. We need to 
ensure the Federal Government properly incorporates the 
valuable CT information that you develop from the streets, the 
street intel, in the communities where you serve every day.
    Today, I hope you will share with us what is working on the 
front lines and what is not. In particular, we want to know how 
we can better support you to respond to this unprecedented 
terror threat.
    Last week, I went to the 9/11 memorial service and listened 
to all the nearly 3,000 names of those killed read aloud. We do 
this each year to remember the fallen and to honor the heroism 
we saw on that fateful day from first responders, from police, 
and everyday citizens.
    Like those brave Americans we lost, our witnesses this 
morning have sworn an oath to protect our people. So before we 
start, let me just say again thank you.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           Septmeber 21, 2016
    This weekend, our Nation was shaken by terrorist attacks in 
Minnesota, New York, and New Jersey.
    We are thankful no one was killed, but our thoughts and prayers go 
out to the injured victims and their families.
    We are still searching for answers in this investigation, and I 
appreciate NYPD Deputy Commissioner Miller being here today to update 
us on the case.
    The threat environment is as high as we have ever seen it, 
especially from radical Islamist terrorists.
    Last year, this committee tracked the most home-grown jihadist 
plots ever in a single year in the United States. And 2016 could be 
even worse.
    Americans are rightfully worried that our city streets are once 
again becoming the battleground: Fort Hood. Boston. Chattanooga. San 
Bernardino. Orlando.
    Some have said this kind of regular terrorism is ``the new 
normal''.
    But I strongly reject that argument. Complacency is not an option.
    Terrorists are threatening American lives, livelihoods, and our way 
of life. We cannot falter with so much at stake.
    That is why yesterday I released a National strategy to win the war 
against Islamist terror, with proposals for fighting the enemy overseas 
and stopping radicalization in our communities.
    My strategy explains that one of our highest priorities must be to 
make sure our front-line defenders are better prepared to stop acts of 
terror.
    This means that police, fire, and other emergency professionals 
need to be able to detect suspicious activity and catch potential 
terrorists before it's too late.
    If a plot goes undetected, they must be equipped to respond quickly 
to prevent loss of life.
    We saw that play out this weekend, when our first responders acted 
heroically to protect their fellow citizens.
    So to the witnesses testifying today, I want you to know that this 
committee is grateful for your service to our communities and your 
sacrifices for our country.
    I also want to convey one message, above all else: We have your 
backs.
    We are committed to giving you the tools to fight terror. And we 
are also committed to giving you the public support you deserve in 
these challenging times.
    It has been a hard year, especially for law enforcement. You have 
faced tough questions in the press, and you are staring down violence 
in our streets every day.
    That is why this committee has fought to protect important DHS 
grant funding that you rely on.
    In fact, last night the House passed my bill to authorize $39 
million in annual grants to help your communities guard against the 
dynamic terror threat, including active-shooter attacks, IEDs, and 
more.
    We have pushed Federal agencies to share intelligence with you more 
quickly and comprehensively.
    We need to ensure the Federal Government properly incorporates the 
valuable CT information you develop from the streets and communities 
where you serve every day.
    Today, I hope you will share with us what is working on the front 
lines--and what is not.
    In particular, we want to know how we can better support you to 
respond to the unprecedented terror threat.
    Last week I went up to the 9/11 memorial and listened to all of the 
nearly 3,000 names of those killed read aloud.
    We do this each year to remember the fallen . . . and to honor the 
heroism we saw on that day, from first responders and everyday 
citizens.
    Like those brave Americans we lost, our witnesses this morning have 
sworn an oath to protect our people.
    So before we start, let me just say again: ``We thank you.''

    Chairman McCaul. With that, the Chair now recognizes the 
Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, and I would like to 
thank you for holding today's hearing.
    In light of the recent terrorist attacks in Minnesota, New 
Jersey, and New York, I would like to offer my sympathies to 
the victims and their families. I believe we all agree that 
terrorism and any other violence on our streets is an all-too-
common occurrence. We must act boldly to stem this tide. I 
would like to thank the witnesses for their service.
    Mr. Miller, thank you for coming to town. I know it is a 
very busy time for you and, obviously, you are still doing your 
work while you are before this committee today.
    Sheriff Demings, thank you for your service. We still stand 
with Orlando and have not forgotten about the victims of the 
June terrorist attack.
    Mr. Chairman, in just the past 4 months, incidents in 
Orlando, Dallas, Minnesota, New York, New Jersey have brought 
into sharp focus the complex, diverse, and confounding nature 
of the lone-wolf threat. Those who are inspired to carry out 
such attacks do not neatly fit a single profile or espouse a 
single hateful or violent extremist ideology. We saw this 
scenario in the Orlando attack where the perpetrator espoused 
several conflicting ideologies and seemingly was not part of a 
terrorist cell.
    Just this past Saturday, a lone actor, who is being 
investigated for possible ties to ISIL, attacked 10 people at a 
mall in Minnesota. Also last weekend, in New Jersey and New 
York, it is believed that the suspected bomber, who also shot 
two police officers, may have been inspired by al-Qaeda, and 
right now appears to have acted alone. In July, a perpetrator, 
who had no formal affiliation with any particular group but may 
have been inspired by a black separatist group, shot and killed 
5 police officers in Dallas, Texas.
    We know by now that our law enforcement is a target for 
terrorists. We also know that law enforcement's job is made 
more difficult by the availability of assault weapons. Earlier 
this month, one of our subcommittees received testimony from 
representatives of local law enforcement identifying the 
availability of guns and the lone-wolf threat as serious 
problems for police. In fact, I would note that one of our 
witnesses today, Chief Acevedo, has gone further in describing 
this challenge by stating that the wide-spread availability of 
guns in this country makes it possible for potentially 
dangerous persons to legally acquire weapons to cause mayhem 
and colossal casualties. Chief Acevedo goes on to state: 
Whether it is ISIS abroad or home-grown extremists, the threat 
exists and haunts police chiefs every day. I look forward to 
engaging Chief Acevedo on this point.
    Even a terrorist knows that it is far easier to carry out 
an attack in the name of that ideology on U.S. soil with a gun 
than in Europe. A testimonial by one former member of ISIL 
published this summer underscores this point. The former 
terrorist explains ISIL's view on terrorist recruitment in the 
United States as follows: For America, it is easy to get them 
over the social network because Americans are dumb. They have 
open gun policies. We can radicalize them easily. If they have 
no prior record, they can buy guns. We don't need a contact man 
to provide guns for them.
    Mr. Chairman, we have seen the scenario the former ISIL 
member mentioned unfold with assault weapons here in this 
country. We saw it in San Bernardino where perpetrators 
inspired by ISIL walked into a soft target and killed 14 people 
and injured another 22 with an assault-style weapon. 
Tragically, we saw it again this June in Orlando when a 
perpetrator walked into a nightclub and killed 49 people with 
an assault weapon.
    Our witness, the sheriff of Orange County, immediately 
recognized the impact that assault weapons was having on our 
homeland security. As Sheriff Demings said in the aftermath of 
the shooting: We have to look at some of our gun laws and make 
a determination of what we stand for and just how prevalent 
some of these assault rifles are available today. Otherwise, if 
we don't make some modification, we are going to continue 
seeing some of what you see happening here now, here in 
Orlando.
    Mr. Chairman, I wholeheartedly agree with you that 
radicalization and recruitment is a problem. But after 9/11, 
the Nation made a vow not to give in to terrorism. Therefore, I 
will not concede that our city streets, the places where our 
constituents live, work, and play are at risk of becoming 
battlegrounds like Syria and Afghanistan. As lawmakers, we must 
make it more difficult for terrorists to carry out attacks on 
U.S. soil. Taking action to prevent terrorists from having 
access to assault weapons would be a good start. However, it 
seems that in the waning days of this Congress, there is more 
appetite for advancing un-American and counterproductive 
proposals, such as closing the borders to Muslims or ethnic 
profiling whole communities.
    Secretary Jeh Johnson testified before this committee, 
noted that with the current threat picture, homeland security 
cannot be achieved without sensible gun control laws. It is 
time for us to rethink how we prevent terrorism.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 21, 2016
    In light of the recent terrorist attacks in Minnesota, New Jersey, 
and New York, I would like to offer my sympathies to the victims and 
their families. I believe we all agree that terrorism and other 
violence on our streets is an all-too-common occurrence. We must act 
more boldly to stem this tide.
    In just the past 4 months, incidents in Orlando, Dallas, Minnesota, 
New York, and New Jersey have brought into sharp focus the complex, 
diverse, and confounding nature of the ``lone wolf'' threat. Those who 
are inspired to carry out such attacks do not neatly fit a single 
profile or espouse a single hateful or violent extremist ideology. We 
saw this scenario in the Orlando attack where the perpetrator espoused 
several conflicting ideologies and seemingly was not a part of a 
terrorist cell.
    Just this past Saturday, a lone actor, who is being investigated 
for possible ties to ISIL, attacked 10 people at a mall in Minnesota. 
Also last weekend, in New Jersey and New York, it is believed that the 
suspected bomber, who also shot two police officers, may have been 
inspired by al-Qaeda and right now appears to have acted alone.
    In July, a perpetrator who had no formal affiliation with any 
particular group but may have been inspired by a black separatist 
group, shot and killed 5 police officers in Dallas.
    We know by now that our law enforcement is a target for terrorists. 
We also know that law enforcement's job is made more difficult by the 
availability of assault weapons. Earlier this month, one of our 
subcommittees received testimony from representatives of local law 
enforcement identifying the availability of guns and the lone-wolf 
threat as serious problems for police.
    In fact, I would note that one of our witnesses today, Chief 
Acevedo, has gone further in describing this challenge by stating that 
``the widespread availability of guns in this country makes it possible 
for potentially dangerous persons to legally acquire weapons to cause 
mayhem and colossal causalities''.
    Chief Acevedo goes on to state ``whether it's ISIS a broad or home-
grown extremists, the threat exists and haunts police chiefs every 
day''. I look forward to engaging Chief Acevedo on this point.
    Even the terrorists know that it is far easier to carry out an 
attack in the name of their ideology on U.S. soil with a gun than in 
Europe. A testimonial by one former member of ISIL published this 
summer underscores this point.
    The former terrorist explained ISIL's view on terrorist recruitment 
in the United States as follows: ``For America . . . it is easier to 
get them over the social network because the Americans are dumb--they 
have open gun policies.'' `` . . . [W]e can radicalize them easily and 
if they have no prior records they can buy guns . . . we don't need a 
contact man to provide guns for them.''
    We have seen the scenario the former ISIL member mentioned unfold 
with assault rifles here in this country. We saw it in San Bernardino 
where perpetrators inspired by ISIL walked into a soft target and 
killed 14 people and injured another 22 people with an assault-style 
weapon. Tragically, we saw it again this June in Orlando when a 
perpetrator walked into a nightclub and killed 49 people with an 
assault weapon.
    Our witness, the sheriff of Orange County, immediately recognized 
the impact that assault weapons were having on our homeland security. 
As Sheriff Demings said in the aftermath of the shooting, ``we have to 
look at some of our gun laws and make a determination of what we stand 
for and just how prevalent some of these `assault rifles' are available 
today. Otherwise, if we don't make some modification, we are going to 
continue seeing some of what you see happening in now here in [Orlando] 
. . . ''.
    Mr. Chairman, I agree with you that radicalization and recruitment 
are a problem. But after 9/11, this Nation made a vow not to give into 
terrorism.
    Therefore, I will not concede that our city streets--the places 
where our constituents live, work, and play--are at risk of becoming 
battlegrounds like Syria and Afghanistan. As lawmakers, we must make it 
more difficult for terrorists to carry out attacks on U.S. soil.
    Taking action to prevent terrorists from having access to assault 
weapons would be a good start. However, it seems that in the waning 
days of this Congress, there is more appetite for advancing un-American 
and counter-productive proposals such as closing the borders to Muslims 
or ethnically profiling whole communities.
    Secretary Jeh Johnson, testifying before this committee, noted that 
with the current threat picture, homeland security cannot be achieved 
without sensible gun control laws. It is time for us to rethink how we 
prevent terrorism.

    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded opening statements may be 
submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
                  Statement of Hon. Sheila Jackson Lee
                           September 21, 2016
    Chairman McCaul and Ranking Member Thompson, thank you for holding 
today's hearing entitled ``Stopping the Next Attack: How to Keep Our 
City Streets from Becoming the Battleground.''
    I want to wish Linden Police Officer Angel Padilla, a 14-year 
member of the force, and 12-year veteran officer Peter Hammer a full 
recovery from their injuries sustained during the arrest of Ahmad Khan 
Rahami.
    My thoughts and prayers also to the 8 Minnesota victims and 29 New 
York victims injured during the terrorist attacks this weekend.
    I would like to thank our witnesses for today's hearing for sharing 
their knowledge and experience with the committee:
  <bullet> Mr. John Miller, deputy commissioner, intelligence and 
        counterterrorism, New York City Police Department;
  <bullet> Chief Art Acevedo, chief of police for the city of Austin, 
        Texas, who is testifying on behalf of the Major Cities Chiefs 
        Association;
  <bullet> Sheriff Michael J. Bouchard Oakland County Sheriffs Office, 
        Oakland County, Michigan who is testifying on behalf of the 
        Major County Sheriffs Association; and
  <bullet> Sheriff Jerry I. Demings with the Orange County Sheriffs 
        Office for Orange County, Florida.
    It is important for the committee to hear from local law 
enforcement that represents our Nation's first line of defense in the 
communities we represent.
    They help to prevent, mitigate, and respond to as well as help 
recovery efforts following a terrorist's incident as well as natural 
and man-made disasters.
    September 11, 2016 marked the 15th anniversary of the attacks that 
killed 2,977 men, women, and children.
    I stood on the East Front steps of the Capitol on September 11, 
along with 150 members of the House of Representatives and sang ``God 
Bless America.''
    As a Member of the House Committee on Homeland Security since its 
establishment, and Ranking Member of the Judiciary Subcommittee on 
Crime, Terrorism, and Homeland Security today's hearing is of 
importance to me.
    I want to thank and commend your work as first responders and your 
dedication to work in public service.
    I know that each of you also know exactly where you were when the 
planes hit the World Trade Center Towers and the Pentagon.
    This was a defining moment in modern American history, but it 
should not redefine who we are as Americans.
    The focus of the work of this committee is to make sure that our 
Nation is secure from the threat of terrorism by providing guidance, 
oversight, and support for the work of the Department of Homeland 
Security (DHS), which includes the agency's support for the work that 
you and your members do every day to secure the Nation.
    DHS has a vital mission: To secure the Nation from the many threats 
we face.
    This requires the dedication of more than 240,000 employees in jobs 
that range from aviation and border security to emergency response, 
from cybersecurity analyst to chemical facility inspector. Our duties 
are wide-ranging, and our goal is clear--keeping America safe.
    DHS requires the cooperation and assistance of local law 
enforcement to accomplish its mission.
    There are over 1 million firefighters in the United States, of 
which 750,000 are volunteers.
    Local police departments have an about 556,000 full-time employees.
    Sheriffs' offices reported about 291,000 full-time employees.
    There are over 155,000 Nationally-registered emergency medical 
technicians (EMT).
    Together, the Federal and local components working well together 
makes the case for our capacity and capability to defeat terrorist who 
seek to do us harm.
    Recent events are an indication of what is possible when the 
Federal, State, and local law enforcement work together.
    The purpose of today's hearing is to receive testimony from law 
enforcement officials regarding the evolving threats communities face.
    Gun violence carnage that claimed the lives of more than 300,000 
persons during the period 2005-2015, include the following:
    1. On July 17, 2016, an offender shot and killed 6 police officers 
        in Baton Rouge, LA. Three of the officers died and 3 were 
        hospitalized.
    2. On July 7, 2016, an offender shot and killed 5 police officers 
        and wounded 11 others (9 police officers and 2 civilians) in 
        Dallas, TX. The offender was killed by police with a remotely-
        guided robot loaded with an explosive. (Domestic Extremist)
    3. On June 12, 2016, an armed assailant shot and killed 49 people 
        and non-fatally wounded over 50 others in an Orlando, FL 
        nightclub. After a 3-hour standoff with police, the assailant 
        was killed by police. (Foreign Terrorist-Inspired Extremist)
    4. On December 2, 2015, 2 offenders killed 14 people and wounded 21 
        others in San Bernardino, CA at a social services center. Both 
        offenders were killed by police while resisting arrest. 
        (Foreign Terrorist-Inspired Extremists)
    5. On November 27, 2015, at a Planned Parenthood clinic, in 
        Colorado Springs, CO, a lone offender shot and killed 3 people 
        and wounded another 9 people with a semiautomatic rifle before 
        surrendering to the police after a 5-hour standoff. (Domestic 
        Extremist)
    6. On July 16, 2015, in Chattanooga, TN, a lone offender killed 5 
        people and wounded another person at a military recruitment 
        office and naval reserve center, before he was killed by 
        police. (Foreign Terrorist-Inspired Extremists)
    7. On June 17, 2015, in Charleston, SC, a lone offender shot and 
        killed 9 parishioners and wounded another parishioner with .45 
        caliber pistol at the historic Emanuel African Methodist 
        Episcopal Church. (Domestic Extremist)
    Nearly 100 metropolitan areas have experienced mass shootings like 
these since 2013.
    Mass shootings occur more frequently in States that do not require 
background checks for all gun sales, and analyses of mass shootings in 
the United States between 2009 and 2015 document that the majority of 
mass shootings occur in venues where the carrying of firearms is not 
restricted.
    I have introduced two measures that specifically address issues of 
gun safety raised by the carnage over the last few years.
    The first bill is H.R. 3125 ``Accidental Firearms Transfers 
Reporting Act of 2015,'' which seeks to shed light on the gun purchase 
loophole that led to Dylan Roof's tragic possession of the firearm used 
to murder 9 innocent persons at Emanuel A.M.E. Church in Charleston, 
South Carolina, as well as the numerous other cases where a firearm was 
handed over to an unintended and potentially dangerous recipient.
    The bill would require the director of the Federal Bureau of 
Investigations to report to Congress the number of firearm transfers 
resulting from the failure to complete a background check within 3 
business days.
    The FBI is further instructed to disclose and report on the 
procedures in place and actions taken after discovering a firearm has 
been transferred to a transferee who is ineligible to receive a 
firearm.
    This bill directs the FBI to report on the erroneous transfer of 
firearms every 6 months to ensure internal oversight and effective 
monitoring to expose any other patterns or practices in need of 
administrative or legislative action.
    I have also introduced, H.R. 5470, ``Stopping Mass Killings By 
Violent Terrorists Act,'' gives our law enforcement agencies another 
tool to help keep the most dangerous weapons out of the hands of home-
grown terrorists.
    H.R. 5470, the ``Stopping Mass Killings by Violent Terrorists 
Act,'' prohibit a firearms dealer from transferring a semiautomatic 
assault weapon or large capacity ammunition clips to a purchaser until 
the Attorney General has verified that the prospective transferee has 
truthfully answered new questions on the firearms background check 
questionnaire regarding contacts between the prospective purchaser or 
transferee and Federal law enforcement authorities.
    Specifically, H.R. 5470 requires and provides that:
    (1) with respect too any firearm or large capacity ammunition 
        feeding device, the Attorney General update the Background 
        Check Questionnaire to include questions relating to the 
        existence and nature of any contacts with Federal law 
        enforcement agencies within the prior 24 months;
    (2) for a purchaser questionnaire, affirming the existence of 
        contacts with Federal law enforcement agencies, that the 
        purchase of a covered firearm cannot be consummated until 
        affirmative approval is received by the FBI; and
    (3) with respect to any firearm or large capacity ammunition 
        feeding device (LCAFD), any purchaser who refuses or fails to 
        provide the information required, the Transferor (Seller) shall 
        nevertheless submit the uncompleted questionnaire to the FBI 
        for further review or investigation.
    On average gun violence claims the lives of 90 persons each day. 
Since 1968, more than a million persons have died at the hand of a gun. 
The homicide rate in the United States is about 6.9 times higher than 
the combined rate in 22 other highly-developed and populous countries, 
despite similar non-lethal crime and violence rates.
    I will add that the challenges to Homeland Security is not a matter 
of seeing the world as a binary choice--us against them whether we are 
speaking of an ethnic group or a religion.
    Our fight against terrorists is long-term and evolving--they adapt 
as their ability to wage war on the battlefields abroad becomes more 
difficult.
    This means that we must also adapt to effectively cut off their 
ability to influence those who are susceptible to their messages of 
violence.
    We must recognize that the threats are not just from outside of the 
country, but also stem from domestic violent extremist groups.
    It took September 11, 2001, for the world to fully understand the 
danger posed by al-Qaeda.
    ISIS/ISIL, a new, and unfortunately, much improved version of al-
Qaeda:
  <bullet> sought out the Syrian conflict--where it could ferment more 
        war and violence so that no governing order could be found;
  <bullet> turned on any moderate or tolerant Muslim group engaged in 
        conflict with Syrian government and murdered them; and
  <bullet> conducted a ``lightning war,'' or blitzkrieg attack, into 
        Iraq and formed the largest border disruption since World War 
        II.
    The ISIS/ISIL's control stretches from the towns along the Syrian-
Turkish border to Raqqa, in northern Syria, that once stretched across 
the obliterated Iraqi border into Mosul, Tikrit, and Falluja, through 
farming towns south of Baghdad--involving one-third of the territory of 
both Iraq and Syria are involved or impacted by this act of aggression.
    As the tide has turned in the war against ISIS/ISIL they have 
focused their efforts on engaging and recruiting people to carry out 
violent acts in their name.
    In the last year alone, ISIS has claimed responsibility for crimes, 
atrocities, and terroristic attacks, and deaths in Saudi Arabia, Yemen, 
Egypt, Beirut, Turkey, Paris, San Bernardino, California, and Orlando, 
Florida.
    Our efforts to counter the influence of domestic and international 
violent extremist groups here at home we must recognize that this is 
not a matter of what we call the threat, but how we respond to the 
threat.
                      countering violent extremism
    Countering Violent Extremism (CVE) both domestic and international 
in nature is a priority that the Nation and policy makers must face.
    To succeed in the fight against violent extremism defined by the 
actions of ISIS/ISIL and Boko Haram we must use every asset available 
to stop the spread of the violence they perpetrate as well as their 
ability to create safe havens in areas where government authority is 
not enforced or consistent.
    The reality of the threat is no longer a matter of governments 
fielding armies or combatants--but the emergence of what is best 
described as a new form of geo-military transnational gang activity.
    The affiliations of violent extremists individuals and groups are 
made up of loosely affiliated people who remaining independent--one 
individual or small group may identify with al-Qaeda today, and switch 
its identification to ISIL or al-Shabaab or Boko Haram depending on 
which group is perceived to be the strongest.
    These groups require chaos to function and they attack institutions 
and people regardless of their religious or ethnic traditions to 
destabilize regions.
    It is ironic and sad that the single greatest casualty group of 
ISIS/ISIL are Muslims--especially those who are women, children, 
disabled, and elderly.
    There is a global refugee crisis in large part because of the 
upheaval in the region of the Middle East impacted by war that has 
lasted more than a decade because the United States made a bad decision 
to invade Iraq.
    The repercussions of that one bad decision cannot be wiped away as 
easily as some would have many believe.
    There are refugees who are seeking safety and the United States 
should be part of the nations taking in refugees.
    A refugee to the United States is not the path a terrorist would 
take because it is hard, takes a very long time, and offers too much 
uncertainty regarding success.
    Each applicant for asylum in the United States must:
    1. register with the United Nations High Commissioner for Refugees;
    2. provide background information, including what caused him or her 
        to flee their home country (a ready means of comparing 
        information provided by more than 1 million refugees to further 
        verify the validity of the information provided);
    3. meet 1 of 5 legal qualifications: Threat of violence based on 
        race, religion, or faith or national origin; political beliefs; 
        or membership in a targeted social group.
    4. undergo a rigorous background check during which investigators 
        fact-check the refugee's biography to ensure consistency with 
        published or documented reports of events such as bombings or 
        other violence;
    5. be subjected to biometric tests conducted by the Department of 
        Defense, in conjunction with other Federal agencies (the U.S. 
        military has an extensive biometric database on Iraqis from its 
        time in Iraq); and
    6. sit for intensive in-person interviews, which may take months or 
        years before they are conducted.
    If, during the screening process, a person from Syria gives a 
response that raise red flags he or she is selected for more intense 
examination by U.S. intelligence agencies.
    The process for those refugees from the conflict area who have 
entered the United States began with the High Commissioner for Refugees 
who referred 22,000 applicants to the United States for consideration.
    The United States through its process only allowed 7,000 for 
further consideration for admittance and in its final decision 
permitted 2,000 individuals to be cleared for entrance into the 
country.
  <bullet> The demographic breakdown of those Syrians who have been 
        approved for refugee status to come to the United States is as 
        follows: Children, 50%; persons over the age of 60, 25%; Combat 
        age males, 2'%.
    I understand, as does the Chair and Ranking Member of this 
committee along with Members on both sides of the aisle that there is 
much more to the work that first responders do than most could imagine.
    That is why I introduced H.R. 2795, the ``First Responder 
Identification of Emergency Needs in Disaster Situations,'' (FRIENDS 
Act), which was passed by the House.
    The FRIENDS Act embodies the important and fundamental idea that we 
have an obligation to ensure that the first responders who protect our 
loved ones in emergencies, have the peace of mind that comes from 
knowing that their loved ones are safe while they do their duty.
    The FRIENDS Act reflects stakeholder input and bipartisan 
collaboration with the Majority.
    I am passionate about the work of those who dedicate themselves to 
public service.
    As the Ranking Member of the Judiciary Committee's Subcommittee on 
Crime, Homeland Security, Terrorism and Investigations, I am working to 
support the work of law enforcement on the streets and neighborhoods of 
our Nation.
    I hold in high regard the service of firefighters, law enforcement 
officers, emergency response technicians, nurses, emergency room 
doctors, and the dozens of other professionals who are the ultimate 
public servants.
    First responders are called to serve and few outside of their ranks 
can understand why they do the work that they do each day--placing 
their lives in harm's way to save a stranger.
    Law enforcement officers, fire fighters, and emergency medical 
technicians make our lives safer, while often at the same time putting 
their own lives at risk.
    I am grateful for your service and look forward to your testimony.
    Thank you.

    Chairman McCaul. We are pleased to have a distinguished 
panel of witnesses here before us today on this topic. I want 
to thank all of you for being here today.
    First, we have Chief Art Acevedo. He is my police chief and 
he is also my friend in my hometown of Austin, Texas. Next, we 
have Sheriff Michael Bouchard from Oakland County Sheriff's 
Office in Oakland County, Michigan. Next, we have Sheriff Jerry 
Demings from the Orange County Sheriff's Office in Orange 
County, Florida. Finally, Mr. John Miller, deputy commissioner 
for intelligence and counterterrorism at the New York City 
Police Department.
    I want to thank all of you for being here, particularly Mr. 
Miller, who I know is very busy with the work and task at hand 
back home in New York. Thanks to all of you for being here.
    I now would like to recognize Chief Acevedo for his opening 
statement.

    STATEMENT OF ART ACEVEDO, CHIEF OF POLICE, AUSTIN, TEXAS

    Chief Acevedo. Good morning, Chairman McCaul, Ranking 
Member Thompson, and Members of the committee. I come here 
before you today as the first vice president of the Major 
Cities Chiefs Organization, which really represents 68 of the 
largest cities of the United States, and the chairman of the 
homeland security committee.
    I want to, first of all, thank you, Mr. Chairman, and your 
committee for your outstanding leadership and your work in this 
vital area at a time when I think the threat not only continues 
to expand, but the consequences of terrorism are hitting our 
communities every day.
    I can tell you that the one thing that keeps us all up is 
the issue of the lone wolf. We have been talking about lone 
wolves for several years now, but just in the last few days, we 
have seen the consequences of these needles in the haystack 
that can become radicalized. We can no longer call this an 
emerging threat. It is an imminent threat, it is an on-going 
threat, and it is a threat that we must continue to fight.
    We have witnessed the horror of these lone wolves, not just 
this weekend, but in my own city. Although we are talking about 
Muslim extremists, we also have to keep in mind that we have 
our own home-grown extremists with very different views, 
including extremely left or right. They are extremists no 
matter which way you look at it and we can't lose sight of 
that.
    As you recall, Mr. Chairman, about 3 years ago now, three 
Thanksgivings ago we had a young man by the name of Mr. 
McQuilliams, who was part of an extremist movement called the 
Phineas Priesthood, who on that Thanksgiving night went around 
Austin trying to burn down the Mexican consulate with an AK-47 
type of assault rifle, attacked the consulate, attacked the 
Federal courthouse, and attacked our headquarters, firing 108 
rounds into our occupied headquarters, nearly striking one of 
our detectives, in the middle of the night. Fortunately, we had 
an American hero, a Texas hero, that was able to stop the 
threat with one shot. Only in Texas can a police sergeant take 
a shot, while he is being shot at with an AK-47 from 312 feet 
away, strike the suspect right in the heart, while holding two 
horses with one hand. I think it speaks to the professionalism 
of the American police officer and the courage, despite the 
National discussion around policing today, which I can tell 
you, as imperfect as it is, we still have the best Nation of 
cops serving.
    Now, the lone wolf. We know that they are out there, we 
know that they are hurting us, we know that they are going to 
continue to hurt us; and radicalization is how they get to that 
point. It is important for this committee, especially for 
elected officials, to temper our comments and temper our broad 
brushes we are using to paint members of a community, of a 
religion, of a race, of a national origin as criminals or as 
terrorists. We know that individuals that feel marginalized or 
feel that they are not welcome end up being much more 
susceptible to radicalization, whether it is from a street gang 
or an Islamist overseas that is using social media to 
radicalize folks. So it is critical that we continue as police 
departments and sheriff's departments and as a Nation to build 
bridges, to make people feel welcome.
    The communities that we serve, whether they are Muslim, 
African American, Hispanic, Asian, Christian, Jewish, they are 
our greatest force multipliers. They are the ones that are 
going to spot the suspicious behavior. They are the ones that 
have to feel that they are embraced and welcomed by law 
enforcement and by this Nation, that they can come forward.
    If you look at just what happened in New York City, it was 
a community member that found one of the unexploded devices. It 
was, I believe, a member of the Sikh community, that happened 
to own a bar, that trusted the New York City Police Department, 
that felt that they are included by the New York City Police 
Department, embraced by the New York City Police Department, 
and came forward and helped the New York City Police Department 
capture that suspect before he can carry out more terror in our 
Nation.
    So again, outreach is key, and we look forward to 
continuing to do just that for our community.
    The criminal intelligence enterprise, Mr. Chairman, you 
know, is really important to us. We continue to work on the 
National level with the sheriff's departments, with their intel 
commanders groups to really be able to tie some of the issues 
that we see across the country to be able to not just disrupt 
but to prevent terrorism. I look forward to talking about that.
    One of the areas that we really need help is the Law 
Enforcement Terrorism Prevention Program. There is really no 
National coordination, no designated official at DHS with 
responsibility to prepare and implement a terrorism prevention 
plan, and LETPP really needs to be explored and, hopefully, 
absolutely strengthened.
    One of the biggest frustrations I have as a police chief, 
and I think my colleagues will share this, is as it relates to 
grant funding and the distribution of funds, FEMA is still not 
the right organization to be spearheading that. FEMA is much, 
much too--too much focused on response. Well, if we are 
responding to a terrorism attack, we have already failed the 
American people. We have got to have another office that 
understands the importance of prevention and the importance of 
disruption. Unfortunately, FEMA, despite our efforts as police 
executives to put more effort in terms of funding for 
prevention and disruption, continues to focus on response. My 
response to that is, it is too late, not only in terms of the 
psychological impact on this Nation and the economic impact. We 
failed at that point. So we really want you to look really hard 
at how those funds are being distributed and who is responsible 
for those funds being distributed.
    The law enforcement leadership position at DHS, the 
assistant secretary of local law enforcement, was established 
by Congress, but the position still cannot deliver the results 
that I think was the vision of Congress, because it lacks 
authority, budget, and staffing.
    We hope that you will consider remedying this organization 
by further directing DHS to put some teeth into that position. 
Fortunately, the incumbent assistant secretary of law 
enforcement, Heather Fong, continues to work with us. But she 
is able to do so because of the efforts of Deputy Secretary 
Mayorkas, who has played an integral role in helping her 
despite those challenges.
    Encryption, as we have discussed, Mr. Chairman, continues 
to be a great challenge. I hope that we will look at having 
industry, when we put in a search warrant, not sit on it, not 
sit on it for days on end when we have seconds, hours, minutes 
to try to disrupt the next attack, whether it is from a person 
with mental illness, an Islamic radical, or some other radical. 
We have to have laws that make these things a priority. I can 
tell you that is extremely frustrating.
    I want to also say that emergency communications is an 
ongoing priority for us at the Major Cities. I want to thank 
Congressman Donovan and Ranking Member Payne for your 
leadership in making communications a stand-alone asset at the 
Federal level.
    Last, UASI. As you know, we were a UASI city in Austin. We 
are no longer UASI. The funding has really been reduced to 
about one-third. We hope and pray that, today, that your bill, 
Mr. Chairman, 5859 passes, because it will be instrumental in 
helping us to continue to prepare and disrupt and respond to 
the next threat.
    Mr. Donovan, I just want to say thank you and, Chairman 
McCaul, for 5308, which is really doing what we should do. It 
is kind of like asset forfeiture from drug traffic 
organizations. We absolutely should take the interest from 
terrorist organizations and invest that interest in the safety 
of the American people and in the safety of our communities 
from everyday crime and from terrorism.
    So I thank you all for your leadership, and I look forward 
to the discussion.
    [The prepared statement of Chief Acevedo follows:]
                   Prepared Statement of Art Acevedo
                           September 21, 2016
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: The central purpose of this hearing is the paramount 
responsibility of the Department of Homeland Security (DHS)--to prevent 
a terrorist attack on the American people. The events of this week 
remind us that the threat is real and we must be more vigilant than 
ever before.
    I appear before you today on behalf of law enforcement executives 
in every major urban area of our Nation, where each of us has taken a 
solemn oath to protect the communities we serve.
    It is my honor to serve as the first vice president and as the 
chairman of the homeland security committee for Major Cities Chiefs. 
Major Cities Chiefs is an organization of the 68 largest cities in the 
Nation, representing virtually every significant target of a terrorist 
attack.
    I come before you today as the Chief of Police in Austin, Texas and 
will begin by thanking my Congressman, your Chairman, for the 
opportunity to testify about what is on the minds of every American, 
``where will terrorism strike next and what measures will we take to 
help keep us safe?''
                 the ``lone wolf''--an on-going threat
    Radicalized persons living in the United States can no longer be 
called ``An Emerging Threat.'' Everyone recognizes the threat of an 
individual or a small group of radicalized individuals, who are either 
acting alone or as agents, are inspired by a foreign terrorist 
organization. Persons vulnerable to radicalization can be easy prey and 
ISIS has made headway in recruiting via the internet. While we can 
occasionally track those who go overseas for terrorist training, we 
will never be able to determine how many here in the United States that 
succumb to internet propaganda.
    We have witnessed with horror how one or two armed terrorists can 
prey upon the innocent public with catastrophic consequences. While the 
incidents over the past weekend included explosive devices, we have 
seen massive casualties without explosives and fully automatic weapons. 
The wide-spread availability of firearms in our country makes it 
possible for potentially dangerous persons to legally acquire weapons 
to cause mayhem and colossal causalities. We have witnessed this 
carnage in a California county office building and a Florida nightclub. 
Whether it's ISIS abroad or home-grown extremists, the threat exists 
and haunts police chiefs every day.
                 community engagement--our best defense
    An isolated extremist or small group of radicals are likely to be 
noticed during everyday community life. We must redouble our efforts to 
form partnerships with community leaders, especially in the Muslim 
community. Law enforcement executives like myself are reaching out 
across the Nation to establish working relationships to counter violent 
extremism. We commend the Appropriations Committee for establishing a 
grant program that is now underway at the Department of Homeland 
Security (DHS) to fund innovative community-based programs to counter 
violent extremism. Best Practices must be replicated and pilot efforts 
must become a wide-spread policy in every community.
    Key actions to stop a ``lone wolf'' are less likely to come from 
Federal intelligence or international communication intercepts. Our 
defense against violent extremists is the community itself. Information 
is received when we have the trust of the community we serve. We may 
hear this information from neighbors, co-workers, and family members. 
We have but to look back on the events of the past few days:
  <bullet> The explosive devices in New Jersey were found by members of 
        the public who called police; and
  <bullet> The suspect arrested on Monday was identified by a business 
        owner who called police.
    These current cases show what police chiefs and sheriffs already 
knew--nothing is more important than public awareness and public 
reporting. Sadly, we have seen examples where information about 
suspicious behavior came after the incident making it too late to 
prevent an attack. More must be done to encourage the public to enforce 
``See Something, Say Something.''
    Suspicious Activity Reporting Program (SAR) was developed and 
piloted with Major Cities Chiefs and provides critical information to 
the FBI to this day. Mr. Chairman, we recommend that you consider how 
to strengthen this vital program.
the criminal intelligence enterprise (cie)--local intelligence officers
    Major Cities Chiefs has joined with Major County Sheriffs to form a 
network of senior intelligence officers from every urban area, an 
organization without precedent in this country. Each jurisdiction has 
designated an intelligence commander. I am pleased to be with one of 
them today at the witness table, Deputy Commissioner John Miller of New 
York City. Working as a team, these intelligence commanders exchange 
information and share intelligence about threats, how to prevent 
attacks, and how to respond. We coordinate these efforts with the FBI 
JTTF in each urban area, the fusion centers, and DHS. DHS I&A has 
provided support to develop a system for sharing information between 
the intelligence commanders.
    How do our local operations relate to those of the FBI and DHS? 
Chiefs and Sheriffs must determine how and where to deploy personnel 
for both prevention and response.
  <bullet> If there is an attack in Europe on public transportation or 
        intelligence that we face such a threat, who decides if there 
        should be armed tactical teams to deter and respond at key 
        transportation points? Local law enforcement makes that 
        decision.
  <bullet> If there is an attack in Europe at a major sporting event or 
        intelligence that we face such a threat, who steps up 
        surveillance and ramps up security measures at these venues? 
        Local law enforcement makes that decision.
  <bullet> If there is an attack in the public area of a European 
        airport or intelligence that we face such a threat, who takes 
        measures to strengthen airport security? Local law enforcement 
        makes that decision.
    While we are partners with DHS and the FBI, neither Federal agency 
can take the steps I have described in these examples. That's why we 
established the Criminal Intelligence Enterprise (CIE)--so we can 
collaborate on measures to protect the public from harm--the very 
purpose of this hearing.
        law enforcement terrorism prevention--our common purpose
    There is no more important and no more neglected program than 
LETPP--the Law Enforcement Terrorism Prevention Program. Once a 
hallmark of Congressional intent to prevent a terrorist attack on the 
homeland, LETPP has become little more than a bureaucratic requirement, 
Governors must ``check the box'' for their funding from the Federal 
Emergency Management System (FEMA). There is no National coordination 
and no designated official at DHS with responsibility to prepare and 
implement a terrorism prevention plan. The committee must share in the 
blame--because Congress has never empowered the Assistant Secretary for 
Law Enforcement to assume this responsibility. Worse yet, FEMA has 
downgraded terrorism prevention from the program established by 
Congress to a bureaucratic definition now call ``Law Enforcement 
Terrorism Prevention Activities''. FEMA has renamed LETPP to LEPTA, 
merely ``Activities'', thus confirming there is no FEMA commitment and 
no DHS program to coordinate local law enforcement efforts to prevent 
terrorism.
   law enforcement programs and funding at fema--an on-going mistake
    So long as this committee leaves FEMA in charge of law enforcement 
grants and programs, critical priorities will be neglected and public 
safety will suffer. Consider the background, mission, culture, and 
leadership at FEMA, and try to find anything that relates to law 
enforcement and terrorism prevention.
    Let me offer a recent and compelling example--the funding which the 
Appropriations Committee has provided in response to recent terrorist 
attacks in Paris, San Bernardino, Brussels, and Istanbul. Termed 
Complex Coordinated Terrorist Attacks, this is the worst of the worst. 
But we heard nothing from FEMA about what has been planned and we were 
given no opportunity for input. The Federal agency focused on natural 
disasters did not have the right approach to stop terrorists. We 
learned that FEMA had no plans to use any of the $50 million for law 
enforcement operations or prevention of a terrorist attack. Thanks to 
the Deputy Secretary and the Assistant Secretary for Law Enforcement, 
FEMA has been asked to reconsider and recast the planned program.
    Neither the administration, nor DHS can correct this misplaced 
responsibility. Only Congress can put law enforcement programs and 
terrorism prevention on the right track, which is not under the 
direction of FEMA. We turn to this committee today and ask that you 
consider a new way forward where law enforcement and terrorism 
prevention would be extracted from beneath the FEMA bureaucracy and 
placed in an appropriate and prominent position at DHS--empowered to 
address the highest priority for us all--protection of the American 
people from any terrorist attack.
                   law enforcement leadership at dhs
    Congress established the position of assistant secretary for local 
law enforcement, but the vision of Congress remains unfulfilled to this 
date. The position you created has been unable to realize even a small 
fraction of the potential foreseen by Congress. The position cannot 
deliver needed results because it lacks authority, budget, and 
staffing. On behalf of every major city in America, we ask the 
committee to consider legislation to remedy this critical weakness in 
the organization of DHS. Unless Congress acts to empower this position, 
the assistant secretary represents a token gesture toward public safety 
and only a hollow shell of law enforcement at DHS. But this need not 
continue, with your leadership and partnership, DHS can do so much more 
for public safety. We implore you to legislate appropriate authority 
and resources for this key position at DHS.
    Incumbent Assistant Secretary for Law Enforcement Heather Fong has 
been extremely effective because her efforts have had the strong 
support of Deputy Secretary Mayorkas. At the time of his nomination, 
the Deputy Secretary pledged to law enforcement that he would listen to 
us and direct needed changes at DHS. I am here to report that he has 
kept his word on a wide range of critical issues, including his strong 
support to empower the assistant secretary. Without his leadership and 
personal commitment on law enforcement issues, the committee would hear 
loud complaints indeed. So long as this committee leaves law 
enforcement programs buried under the FEMA bureaucracy and fails to 
grant authorities to the assistant secretary for law enforcement, our 
priorities are addressed only when directed by the deputy secretary. 
Mr. Chairman and Members of the committee--please know that our 
successes at DHS are not because of the current organizational 
structure--progress has been made in spite of it.
                 encryption--a threat to public safety
    Law enforcement leaders embrace encryption and respect privacy 
rights. Police agencies themselves have been the victim of unlawful 
intrusions, cyber attacks, and the theft of sensitive data. To protect 
privacy and unreasonable searches, police are trained to follow strict 
procedures and required by law to obtain court orders when obtaining 
protected evidence. These established laws and procedures have served 
Americans well, and represent the balance between individual rights and 
protection of the public.
    New measures designed to safeguard data security and privacy have 
thrown off the balance and have had an unintended result--they prevent 
local emergency responders from helping persons in danger and 
apprehending offenders who prey on the public. Both encryption 
technologies and proposed privacy measures have crossed over the point 
of balance and go to such extremes that police and sheriffs are 
prevented from discharging our most fundamental duty--protection of the 
public.
    When police and sheriffs have a court-approved warrant, or there is 
an immediate threat of grave harm, service providers should respond 
with urgency, but that is not the reality we now face. Until the recent 
refusal by Apple to assist the FBI with a phone recovered by the San 
Bernardino terrorists, the public was not aware that police routinely 
face delay and roadblocks when attempting to obtain information from 
service providers and cellular device manufacturers--even when that 
information is needed to save lives and has been directed to be 
provided through a court order.
    When lives are in danger and violent offenders seek to prey upon 
the public, the industry should not be permitted to ignore court 
orders--no entity is above the law and no business model purposefully 
crafted to thwart criminal investigations should be acceptable to this 
committee. We are grateful for the efforts of the Chairman to address 
this issue and we pledge our continuing support to restore the balance 
between privacy and public safety.
             emergency communications--an on-going priority
    We commend the committee and wish to express our appreciation for 
your response to our concerns about the priority of emergency 
communications. When 5 National associations, including the Major 
Cities Chiefs, expressed our grave doubts about the proposed DHS 
reorganization--you responded with legislation that did exactly what is 
needed--your reorganization bill would remove emergency communications 
from beneath cybersecurity and place it in the prominent position where 
it belongs, with a line item budget so that first responders can see 
the level of funding devoted to our lifeblood--emergency 
communications. Our grateful thanks to Congressman Donovan and Ranking 
Member Payne for their leadership on these vital issues.
  urban area security initiative (uasi)--a greatly diminished resource
    Urban Area Security Initiative (UASI) represents the responsibility 
that each of you shares with a chief of police--protecting the American 
people from harm. Major Cities Chiefs counts every one of the UASI 
cities in our membership and that means we have a direct tie to the 
important work of this committee, but the UASI program designed to 
support preparedness and prevention efforts has been diminished as the 
threat has increased. UASI is a small shadow of what it once was. The 
President's budget cuts UASI to $330 million, if you add the State 
Homeland Security Grant Program proposal for $200 million, that is a 
total of $550 million, just a third of the more than $1.6 billion in 
2009 and 2010. These cutbacks have severely hampered the critical 
efforts of fusion centers and homeland security programs in the major 
urban areas--at a time when they are needed more than ever before.
                            the way forward
    Mr. Chairman and Members of the committee, chiefs of police and 
sheriffs are grateful for all you do. We look to you for leadership, we 
cannot accept the status quo, that is not leadership. Thanks to 
Chairman McCaul and the committee, today's hearing is an opportunity to 
take a fresh look at what can be done to strengthen the security of our 
homeland. From here I will go to meet with Chairman Carter to encourage 
the mutual efforts of your colleagues on the Appropriations Committee. 
We call upon you to legislate needed changes that will strengthen the 
partnership between law enforcement and the Department of Homeland 
Security. Our common bond is the safety of the public we have sworn to 
protect.

    Chairman McCaul. Thank you, Chief Acevedo.
    The Chair recognizes Sheriff Bouchard.

  STATEMENT OF MICHAEL J. BOUCHARD, OAKLAND COUNTY SHERIFF'S 
                OFFICE, OAKLAND COUNTY, MICHIGAN

    Sheriff Bouchard. Well, good morning, Chairman McCaul, 
Ranking Member Thompson, and distinguished Members of the 
committee. My name is Michael Bouchard. I am the sheriff of 
Oakland County and I have been in law enforcement for almost 30 
years, and run one of the Nation's largest sheriff's offices. I 
will be speaking briefly, but in my actual testimony I 
submitted, I go into greater depths. So we will kind-of be at a 
30,000 feet on this.
    I am the vice president in charge of government affairs for 
Major County Sheriffs' Association of America, and I am 
testifying on their behalf. Like all of you and all of our 
fellow Americans, on 
9/11, our world was changed dramatically. I was proud to lead a 
team to work at Ground Zero immediately after the attack. Over 
the past 15 years, our country has made great progress in our 
ability to prepare for, respond to, and prevent terrorist 
attacks.
    The men and women of law enforcement work every day to 
ensure our individual communities and our local neighborhood 
streets, as the Chairman said, do not become the next 
battleground.
    The nature of violence in America and around the world has 
evolved, and as the good chief mentioned, the expansion of 
encryption, the use of social media for mass propaganda, 
inspiration of lone-wolf attacks, and selective recruitment is 
very evident and very prevalent.
    We in the law enforcement community find ourselves in a new 
age where criminals and terrorists enthusiastically operate 
beyond the confines of law through encrypted networks and 
applications in mobile devices. The MCSA partnered with the 
Major Cities Chiefs to examine that issue at depth of going 
dark. I would like to submit our joint paper into the record, 
Mr. Chairman, following this discussion.
    Chairman McCaul. Without objection so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files and is also 
available at https://www.majorcitieschiefs.com/pdf/news/
going_dark_april_2016.pdf.
---------------------------------------------------------------------------
    Sheriff Bouchard. The home-grown violent extremists are 
another example of the evolving dynamic threat environment 
facing local law enforcement. HVEs can come from a variety of 
backgrounds and driven by either religious or ideological 
factors. They present a uniquely dangerous situation for local 
law enforcement because they are familiar with U.S. customs and 
day-to-day activities.
    Robust community engagement, as was mentioned by the chief, 
is very important and a direct way of combatting violent 
extremism. It requires commitment from the agency leadership to 
meet with leaders of diverse communities. Through dedication 
and consistency, those relationships become resilient.
    As evidenced by recent radical Islamic terrorist attack in 
San Bernardino and others, the threat to public safety and 
National security posed by our Government's refugee and visa 
programs are real. When a query is conducted and no information 
is available from their home country, it is impossible to 
verify the information needed to make an informed decision on 
the threat level posed by an applicant.
    The DHS OIG published a report on Monday that found the 
U.S. Citizenship and Immigration Services granted citizenship 
to over 800 individuals from special interest countries who had 
been ordered deported or removed under a different name. That 
is the vetting process we are talking about. The Refugee Act 
requires Federal Government to consult regularly with State and 
local governments concerning sponsorship process and the 
intended distribution of refugees to State and localities.
    Despite this requirement, no one from the Federal 
Government has made any effort to consult with my county or 
members of our association on this issue. There has been over 
1,200 refugees settled in my State, with the majority in my 
county, and not one phone call.
    With the increased threat environment, law enforcement has 
been continually asked to do more with less. The President has 
proposed a fiscal year 2017 budget that cuts UASI funding by 45 
percent. The total amount of SCAAP reimbursements received have 
been reduced every year.
    Through executive action and not legislation the 
administration recalled certain 1033 military surplus 
equipment. On the same day as the San Bernardino terror attack, 
my office received an order to return an armored personnel 
carrier to be destroyed because it looks too militarized.
    An armored vehicle pulls up every day at a bank or a 
grocery store to protect money and it is viewed as normal. But 
if law enforcement pulls up in the same vehicle at the same 
building to protect lives, somehow it is bad.
    In fiscal year 2016, Congress allocated $39 million to DHS 
for a grant initiative specifically to help local governments 
prepare, prevent, and respond to complex coordinated attacks. 
Law enforcement stakeholders proactively offered suggestions to 
FEMA to address law enforcement needs, and we are quickly 
approaching fiscal year 2017 and no progress has been made on 
that issue either.
    After I self-deployed at the direct request of involved 
agencies to Ground Zero and Hurricane Katrina, we engaged in 
great dialog with FEMA about how to formulate, create, equip, 
and train regional response teams. Where does that program 
stand today? I don't know. It has been 2 years we worked on 
that and it has completely fallen off the map.
    Despite the administration claims, our borders are more 
secure than ever. Undocumented individuals continue to 
illegally enter the homeland. If we don't have border security, 
we do not have National security.
    I would like to thank the committee and its staff for all 
of their work. Bipartisan and countless bills have passed this 
committee with the aim to secure our homeland. I would also 
like to thank the Chairman for his commitment and collaboration 
and willingness to engage us in local law enforcement. It is 
greatly appreciated and often not heard at other levels. I 
would also like to thank the committee, and I look forward to 
each of your questions. Thank you, sir.
    [The prepared statement of Sheriff Bouchard follows:]
               Prepared Statement of Michael J. Bouchard
                           September 21, 2016
    Chairman McCaul, Ranking Member Thompson, distinguished Members of 
the committee, thank you for inviting me to testify this morning on 
behalf of the Major County Sheriffs' Association.
    I am currently serving my fourth 4-year term as Sheriff and have 
been in law enforcement for almost 30 years. I run one of the largest 
Sheriff's Offices in the country where I oversee 1,300 employees and 
manage an annual budget of over $141 million dollars. We provide 
police, jail, and court services for over 1.2 million people and nearly 
1,000 square miles. In addition to serving the people of Oakland 
County, I am also the vice president and chair of government affairs of 
the Major County Sheriffs' Association of America (MCSA). The MCSA is 
an association of elected Sheriffs representing our Nation's largest 
counties with populations of 500,000 people or more. Collectively, we 
serve over 100 million Americans.
    I, like you, felt the world change on 9/11. I was proud to lead a 
team to work at Ground Zero immediately after the attack. To me, it was 
one of the worst days in our Nation's history and at the same time, was 
also one of the proudest. In the depth of that pain, suffering, and 
shock, we showed great support and love for each other.
    Over the past 15 years, our country has made great progress in our 
Nation's ability to prepare for, respond to, and prevent terrorist 
attacks here in the United States. The men and women that make up the 
local law enforcement agencies in the United States are committed to 
this effort. We work every day, every night, and every holiday, to 
ensure that our individual communities and our local neighborhood 
streets are not the next battleground in this on-going effort. On 9/11 
many selfless sacrifices were on display that day. Those kinds of 
selfless sacrifices have continued to this day but unfortunately, we 
don't see the unity or the laser focus on how we can defeat this 
dangerous enemy. I thank you for making it your focus.
    Threat Evolution.--The nature of violence in America and around the 
world has evolved as has the expansion of encryption, use of social 
media for mass propaganda, inspiration for lone-wolf attacks and 
selective recruitment. It is no secret that social media has played a 
primary role in the unprecedented uptick of ISIS sympathizers and 
disciples. Through the George Washington University Program on 
Extremism, over 300 American and/or U.S.-based ISIS sympathizers have 
been identified on-line as actively spreading propaganda.\1\ Since 
March 2014, 85 individuals across 24 States have been charged in the 
United States with offenses related to ISIS and it has been reported 
that since the fall of 2015, roughly 250 Americans have traveled or 
attempted to travel to join ISIS.\2\
---------------------------------------------------------------------------
    \1\ https://cchs.gwu.edu/sites/cchs.gwu.edu/files/downloads/
ISIS%20in%20America%20-%20Full%20Report.pdf.
    \2\ https://cchs.gwu.edu/sites/cchs.gwu.edu/files/downloads/
ISIS%20in%20America%20-%20Full%20Report.pdf.
---------------------------------------------------------------------------
    With the influence of ISIS inspiring acts of abhorrent violence, we 
are reaching a National crisis point. As ISIS and other terrorist 
groups, such as al-Shabaab, reach out to individuals within the United 
States, the threat of lone-wolf attacks on U.S. soil is increasing. 
Instead of luring radicalized Americans overseas, the Islamic State 
encourages actors to stay home and carry out their acts of terror on 
the motherland.
    LE Preparedness.--Law enforcement is the first group to respond to 
areas in times of emergency, with the great responsibility to act 
quickly and effectively in times of terror and uncertainty. This was 
clearly shown in San Bernardino and Orlando. Securing the homeland 
cannot be an afterthought--law enforcement regularly and proactively 
prepares for the unthinkable and as the threat picture and nature of 
violence has evolved, so too has local law enforcement.
    After the attacks in Mumbai, I contacted all the chiefs in my area 
of responsibility and called on us to train together on a regular 
basis. Further, we needed to train on the same tactics so we could 
respond and meld together immediately should a similar scenario develop 
in my AOR. We have since trained thousands of police officers. Local 
police are now directly responsible for responding to the changing 
threat matrix.
    HVE.--Home-grown Violent Extremists (HVE's) are an example of the 
evolving and dynamic threat environment facing local law enforcement 
today. HVE's can come from a variety of backgrounds and can be driven 
by either religious or ideological factors. These individuals often 
become radicalized though social media or other on-line propaganda. 
HVE's present a uniquely dangerous situation for local law enforcement 
because they are often very familiar with U.S. Customs and the day-to-
day activities of the community and neighborhood where they live. This 
makes them hard to detect, and as their path to radicalization 
advances, they are often able to commit their violent acts with little 
or no warning for local law enforcement in their community.
    Over the past year or so, we have seen incidents like this unfold 
in Chattanooga, TN, San Bernardino, CA, and Orlando, FL.
    Community Engagement.--Robust community engagement efforts are a 
direct way of combating violent extremism in local communities. 
Community engagement requires commitment at all levels in a local law 
enforcement agency. It requires commitment from agency leadership to 
reach out and meet with leaders from the diverse communities in their 
jurisdiction. These relationships are not built overnight, but through 
dedication and consistency, the relationships become resilient. Trust 
is built one day at a time. Trust is built one situation at a time. 
Furthermore, a robust community engagement effort also requires 
commitment from dedicated engagement units/teams. These supervisors and 
deputies are the faces of our law enforcement agencies in the 
community. They attend the events; they host law enforcement-led 
roundtables; they host citizen academy classes; they teach cultural 
awareness to other law enforcement officers; and, most importantly, 
over time, they become the first point of contact for family members, 
teachers, or coaches if they observe something that is not right.
    Encryption.--Law enforcement officials' ability to lawfully access 
digital evidence has been severely hamstrung by technological 
advancements and non-technological barriers to access. We in the law 
enforcement community find ourselves in a new age where criminals and 
terrorists enthusiastically operate beyond the confines of the law 
through encrypted networks, applications, and mobile devices. The 
encrypted applications used for preplanning and coordination among the 
Paris attackers may have prevented the advance detection of the 
attacks, but the cell phone of one of the terrorists recovered outside 
the Bataclan theater helped investigators apprehend the ringleader of 
the attack, Abdelhamid Abaaoud. When law enforcement officials 
identified Abaaoud's cousin in the phone's call list and her location, 
Abaaoud was finally located.\3\ It was later confirmed that Abaaoud 
died in the detonation of a suicide bomb during the raid.
---------------------------------------------------------------------------
    \3\ http://www.nytimes.com/2016/03/20/world/europe/a-view-of-isiss-
evolution-in-new-details-of-paris-attacks.html.
---------------------------------------------------------------------------
    Refugees.--As the highest law enforcement officer in our counties, 
our mandate and priority is to protect our communities. The communities 
we serve are vibrant and encompass a myriad of nationalities, 
perspectives, and cultures. As a Nation of immigrants, we are sensitive 
to the humanitarian needs of refugees being persecuted in their home 
country, but it must first be weighed against protecting the homeland 
from those that seek to harm America.
    The current administration claims Syrian refugees will be 
sufficiently vetted via ``enhanced security screening'' and the 
American people should not be fearful of ``women and children'' being 
allowed entry into the country. However, FBI Director Comey sat before 
this very committee and stated, ``We can only query against that which 
we have collected. And so if someone has never made a ripple in the 
pond in Syria in a way that would get their identity or their interest 
reflected in our database, we can query our database until the cows 
come home, but there will be nothing show up because we have no record 
of them.''\4\
---------------------------------------------------------------------------
    \4\ https://homeland.house.gov/press/nations-top-security-
officials-concerns-on-refugee-vetting/.
---------------------------------------------------------------------------
    The threat to public safety and National security posed by the 
Federal Government's refugee and visa programs are real, as evidenced 
by the recent radical Islamic terrorist attack in San Bernardino. The 
female attacker entered the United States in 2014 on a K-1 Visa and 
despite being ``vetted,'' the process did not uncover her intentional 
use of a false address in Pakistan, her contacts with other radical 
jihadists, or her own radical ideology--an ideology she openly 
expressed on her Facebook page. Consequently, she was allowed into the 
United States without any restrictions and was able to fly under the 
radar without any red flags being raised prior to the attack.
    The current vetting process for refugees is entirely insufficient. 
When a query is conducted and no information is available from their 
home country to help validate the information submitted on the 
application, it is impossible to adequately verify all of the 
information needed to make an informed decision on the threat level 
posed by the applicant.
    All refugees allowed to enter the United States should be closely 
monitored by the Federal Government and their personal information and 
resident address should be provided to local law enforcement agencies 
(LEA) immediately upon their placement into a community to ensure 
sufficient oversight and facilitate communication between Federal, 
State, and local LEAs. In fact, the Refugee Act (Pub. L. 92-212) 
specifically requires the Federal Government to consult regularly with 
State and local governments and private nonprofit voluntary agencies 
concerning the sponsorship process and the intended distribution of 
refuges among the States and localities.\5\ Despite this requirement, 
no one from the Federal Government has made any effort to consult with 
my county or other members in our association. There have been over 
1,200 refugees settled in my State with the majority in my county which 
makes us the top 2 in the Nation.
---------------------------------------------------------------------------
    \5\ http://uscode.house.gov/statutes/pl/96/212.pdf.
---------------------------------------------------------------------------
    Political correctness should not prevent proactive compliance 
protocols from being implemented and enforced on those allowed to enter 
the country and participate in the refugee program. ISIS has stated 
they intend to imbed terrorists in the refugee program and we should 
take them at their word. Since the vetting process is demonstrably 
insufficient to prevent terrorists from posing as true refugees, it 
should be suspended from countries of interest until such time as its 
process ensures not a single refugee enters the homeland under false 
pretenses. Consequently, the Federal Government's plan to dramatically 
increase the number of refugees into America from countries of interest 
is extremely concerning and, in its current state, has the very real 
potential to compromise National security.
    Prison Radicalization.--Prison radicalization and recruitment is an 
on-going concern. Former Director of the Bureau of Prisons, Harley 
Lappin, testified back in 2003 before the Senate Judiciary Subcommittee 
on Terrorism, Technology, and Homeland Security where he stated, ``We 
know that inmates are particularly vulnerable to recruitment by 
terrorists and that we must guard against the spread of terrorism and 
extremist ideologies . . . In addition, our institutions work closely 
with the Local Joint Terrorism Task Forces (JTTF) to share information 
and intelligence about these inmates.''\6\ Many of our MCSA members 
devote both personnel and resources to these JTTFs without Federal 
reimbursement.
---------------------------------------------------------------------------
    \6\ https://www.judiciary.senate.gov/imo/media/doc/
lappin_testimony_10_14_03.pdf.
---------------------------------------------------------------------------
    Influential radicalized inmates pose a series of complex challenges 
to law enforcement officials--they can encourage other prisoners, upon 
release, to go to specific locations in an effort to further their 
extremist ideologies and can urge inmates to incite violence within the 
facility posing a substantial risk to prison security.
    Grants.--With an increased threat environment, law enforcement has 
continually been tasked to do more with less. Cost implications coupled 
with a heightened security environment is simply unsustainable. In an 
era of deep budget cuts and lack of Federal funding, State and local 
law enforcement does not have the necessary funds, and most recently 
access to necessary life-saving equipment.
    Grant programs such as the State Homeland Security Grant Program 
(SHSP) and the Urban Areas Security Initiative (UASI) work to address 
gaps in local agencies capabilities for responding to terrorist 
threats. Other programs such as the Edward Byrne Memorial Justice 
Assistance Grant Program (JAG) have a broader focus of providing 
critical funding to support a range of different program areas. Over 
the past few fiscal years, law enforcement has seen a steady decline in 
Federal grant funding and most recently, President Obama's fiscal year 
2017 budget request cut UASI funds by 45 percent. The amount of monies 
we receive for these new and evolving threats is a trickle at best. 
Also, our brothers and sisters in fire service receive grants for 
personnel with no match. Police grants typically have at least a 25% 
match so the communities in the greatest need due to financial distress 
caused layoffs do not have the financial ability to accept the grant 
due to cost implications.
    In 1994 the Bureau of Justice Assistance (BJA), U.S. Department of 
Justice began to administer the State Criminal Alien Assistance Program 
(SCAAP), which ``provides Federal payments to States and localities 
that incurred correctional officer salary costs for incarcerating 
undocumented criminal aliens who have at least one felony or two 
misdemeanor convictions for violations of State or local law, and who 
are incarcerated for at least 4 consecutive days during the reporting 
period.''
    Despite SCAAP program funding, it does not fully reimburse actual 
detention costs associated with the incarceration of illegal criminal 
aliens. Instead, data received by all applicant agencies is combined to 
determine each applicant's relative percentage of the total SCAAP 
allocation.
    Consequently, it is not uncommon for most agencies to receive SCAAP 
reimbursement of only a few percentage points of the actual costs 
incurred. Historically, the total amount of reimbursements received 
have been drastically reduced every year, especially since 2008. For 
example, in San Bernardino County, the SCAAP reimbursement in 2008 was 
$2,324,814. In 2015, the reimbursement was reduced by over 80% to 
$425,559.
    Military Surplus Equipment.--The Law Enforcement Support Office 
(LESO) military surplus and Federal grant programs are examples of a 
good partnership between the Federal Government and local government 
entities. It is fiscally responsible and assists in equipping our 
Nation's law enforcement with equipment that saves lives. In areas of 
our Nation that are fiscally stressed, it is potentially the only way 
their law enforcement officers would ever receive that type of support. 
The transfer of equipment from Federal inventory saves taxpayers a 
significant amount of money, simply because Federal surplus items have 
already been purchased once. In fact, many of the same items that they 
receive through Federal assistance programs have been used by law 
enforcement agencies for decades.
    Through executive action and not legislation, the administration 
has recalled certain 1033-controlled military surplus equipment. While 
the ultimate goals of law enforcement remain the same: To protect the 
public; to solve, deter, and respond to criminal acts; and to enforce 
the law in a responsible and Constitutional manner, the administration 
has sought to inappropriately legislate through perception at the cost 
of public safety.
    On the very same day as the San Bernardino terror attack--our 
Nation's worst attack since 9/11--my office received an order to return 
an armored personnel carrier back to the Federal Government to be 
destroyed because it looked militarized. We should focus on reality not 
perception, and on that day America saw reality on live TV in San 
Bernardino and how armored vehicles protect people. An armored vehicle 
pulls up at a bank or grocery store every day to protect money and it's 
viewed as normal. But, if law enforcement pulls up in the same vehicle 
at the same store to protect people it's militarized and bad?
    In San Bernardino, all items obtained through the 1033 program by 
the Sheriff's Office are used solely by specialized divisions and 
personnel. Prior to acceptance of this equipment, it receives Board of 
Supervisor's approval.
    The recall of certain types of controlled equipment will 
undoubtedly leave America's law enforcement less prepared and at a 
disadvantage to protect local communities against terror attacks and 
dangerous situations.
    Complex Coordinated Attacks.--In fiscal year 2016 under the banner 
of responding to emergent threats from violent extremism, Congress 
allocated $39 million dollars to the Department of Homeland Security 
(DHS) for a grant initiative to specifically help State and local 
governments prepare for, prevent, and respond to complex, coordinated 
terrorist attacks with the potential for mass casualties and 
infrastructure damage.
    LE stakeholders proactively offered suggestions to FEMA that 
address current LE needs related to prevention and disruption, 
realistic training and exercises, and training-related equipment. FEMA 
needs to follow Congressional intent and not appropriate the funding 
for non LE-focused administrative purposes. We are quickly approaching 
fiscal year 2017 and no progress has been made.
    FEMA Regional Assets.--I self-deployed at the direct request of 
involved agencies to Ground Zero and Hurricane Katrina. Afterwards, we 
engaged in great dialogue and discussion about how to formulate and 
create, equip and train regional response teams that could be called up 
for large situations and the units deployed be expanded out to other 
regions as needed. Where does that program stand today? We worked on it 
for over 2 years and it fell off the map.
    Secure the Border.--Border security remains a top priority for the 
MCSA. Our members are located in both Northern and Southwest border 
States, where the most negative outgrowths of illegal immigration--from 
drugs and gangs to human trafficking and exploitation and terrorist 
infiltrations--impact our communities on a daily basis. Despite the 
administration's claim that our borders are more secure than ever 
before, waves of undocumented individuals continue to illegally enter 
the homeland. If we do not have border security, we cannot have 
National security.
    Additionally, information sharing between Federal, State, local, 
and Tribal law enforcement is absolutely critical to maintaining public 
safety and combatting a wide variety of inter-State and international 
threats that impact our communities. One specific area here that we 
remain concerned about focuses on timely delivery of key information 
from the Federal level to States and locals on known criminal aliens 
that may reside in our communities. There is no direct access to ICE 
databases when a person is queried on a traffic stop or as they come 
into booking.
    Information-sharing responsibilities are binary meaning that 
information should not just flow from the bottom up. Frankly, State and 
local law enforcement need to know critical information regarding 
illegal immigration, as it affects the safety of our officers and the 
communities they protect. MCSA has raised this issue for years going 
back to the 9/11 commission report component urging information sharing 
and we have yet to see any progress made.
    I want to thank the committee and its staff for all of their hard 
work--countless bills have passed this committee on a bipartisan basis 
all with the aim to secure the homeland. National security should not 
be a partisan issue; we all have a vested interest. The MCSA seeks to 
be a positive source of ideas and I thank the Chairman for his 
commitment to collaboration and willingness to engage local law 
enforcement.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman McCaul. Thank you, Sheriff Bouchard.
    The Chair recognizes Sheriff Demings.

STATEMENT OF JERRY L. DEMINGS, ORANGE COUNTY SHERIFF'S OFFICE, 
                     ORANGE COUNTY, FLORIDA

    Sheriff Demings. Good morning, Chairman McCaul and Ranking 
Member Thompson and Members of the committee. It is indeed an 
honor and a privilege for me to provide testimony today during 
this hearing to discuss ways to stop the next attack.
    I am not here today to be a doomsday reporter, but I do 
believe that our Nation has experienced a paradigm shift in our 
global war on terror. I agree with the Chair and Ranking Member 
that we should not accept the current state of affairs as the 
new normal.
    There have been numerous recent violent incidents on U.S. 
soil which indicates that terror subjects have brought the 
fight to our homeland. They are now focusing on soft targets in 
our cities and counties, which puts local law enforcement 
officers squarely in the crosshairs of violent extremists.
    My community, the metropolitan Orlando area, experienced 
such an attack on June 12. Members of my agency responded to 
assist the Orlando Police Department in the initial response 
involving an active shooter. The incident remains under 
investigation by the FBI, but it is believed that a lone gunman 
killed 49 innocent people and injured another 53 persons in the 
Pulse nightclub incident. The incident began shortly after 2 
a.m., when Omar Mateen began randomly firing at patrons of a 
club that catered to the LGBTQ community on a night dedicated 
as Latin night.
    Like no other time in our history, if we are going to be 
successful at reducing attacks on American citizens by violent 
extremists, Federal, State, and local law enforcement 
authorities must improve our working relationships in 3 ways. 
No. 1, we must improve the access to information, the sharing 
of actionable intelligence information that can be used to 
identify and arrest subjects involved in plotting attacks 
before an attack occurs. No. 3, funding for counterterrorism 
efforts, to include training and equipment, must be increased.
    As it relates to information, the Department of Homeland 
Security, DHS, should reassess its policy on precluding State 
and local law enforcement agencies from having access to the 
ICE database that identifies individuals as being in this 
country illegally. Officer and public safety become a major 
issue in instances when law enforcement officers do criminal 
history checks in the field through the National Crime 
Information Center, NCIC, and they are not made aware of a 
subject's immigration status. Immigration enforcement is 
clearly a function of the Federal Government and sheriffs do 
not seek this authority. We have enough on our plates already.
    Our concern is for the safety of our officers. When 
officers or deputies encounter someone, and the person is here 
illegally, that person assumes the police already know they are 
illegal and have the authority to arrest and deport them. Local 
and State law enforcement should know who they are dealing 
with, even if they cannot arrest for immigration violations.
    As it relates to sharing information, Florida sheriffs have 
seen increased communication from the Department of Justice and 
DHS to State and local law enforcement concerning critical 
incidents. Assistant Secretary Heather Fong at DHS's Office of 
Partner Engagement has been a driving force behind this, and 
most sheriffs and police chiefs have been invited to 
participate in conference calls following significant National 
and international events affecting law enforcement and public 
safety.
    I am the current president of the Florida Sheriffs 
Association and give credit to DHS Secretary Johnson and FBI 
Director Comey for increasing communication with State and 
local law enforcement and for pushing facts to sheriffs 
directly as opposed to sheriffs receiving information from the 
National news media.
    In order for American law enforcement to prevent, respond 
to, and mitigate domestic terror attacks, analytics, and 
training will be integral to stopping the attacks from 
proliferating. Central Florida has been the benefactor of 
numerous projects funded in previous years by the Urban Area 
Security Initiative, or UASI, grant program.
    We have been working for the past 2 years to get DHS 
funding restored to our region. Primarily, Members of Congress 
from both the House and Senate have worked with Orlando Police 
Chief Mina and me in these efforts. We have petitioned DHS and 
FEMA to reassess the Orlando-Kissimmee-Sanford, Florida MSA and 
the need to strengthen and secure Central Florida from another 
terror attack like the Pulse nightclub incident.
    The Central Florida region has been fortunate to receive 
approximately $45.5 million in U.S. funding since 2004. The 
Orange County Sheriff's Office has managed the funds. The 
funding received prior to 2013 was critical to our region's 
ability to prevent, protect, respond to, and recover from, not 
only terrorism, but a broad range of other threats and hazards. 
We are only as good at preventing a terror attack as the 
quality of information we receive about that attack.
    I will briefly discuss one of our most notable regional 
partnerships in Florida called the Central Florida Intelligence 
Exchange, or CFIX for short. It is located in Orlando and is 
only one of three fusion centers in Florida. It serves as a 
central repository of databases that are currently being used 
by the Florida Department of Law Enforcement and other Federal, 
State, and law enforcement agencies.
    In addition to its counterterrorism focus, CFIX serves as 
an all-hazards fusion center, assisting agencies in the 
mitigation and assistance needed to recover from hazards such 
as hurricanes and natural disasters. CFIX assists with the 
investigation of crimes that possibly contain a nexus to 
terrorist activity or other homeland security issues. In other 
words, fusion centers located throughout the country are 
pivotal to our Nation's mission of stopping terror attacks.
    Due to the lack of funding, some critical needs of our CFIX 
or fusion center have been lost. We have reduced a number of 
analysts, which could have worked to provide intelligence 
information that could prevent a terror attack.
    Through the National Infrastructure Protection Program, we 
received UASI funding for a video camera surveillance project 
in the tourist quarter, downtown Orlando, and in areas near the 
University of Central Florida. Due to a loss of funding, we 
have not been able to expand the project into areas around our 
top tourist destinations.
    Prior to June 12, 2016, we held more than a dozen UASI-
funded training exercises over the past 12 years. I believe the 
agency's responding to the Pulse incident flawlessly initiated 
an active-shooter response because of training paid for through 
historical UASI funding. You have a list of the training 
exercises in your material.
    We train to respond, as a region, to a terror attack or 
other disaster. About 150 of my deputies, along with multiple 
other law enforcement, fire, and EMS agencies, responded to 
assist the Orlando Police Department during the Pulse incident. 
Because of the infrastructure connections in our region, it is 
a natural thing to have regional capability and vulnerability 
assessment. Regional preparedness, response and recovery 
efforts are also pivotal to the mission of stopping and/or 
reducing terror attacks.
    Presently, FEMA uses the Office of Management and Budget's 
geographical boundaries defined in the Federal Register when 
calculating risk scores for MSAs. We believe that the 
boundaries of our Orlando MSA should be expanded to include the 
Brevard area to the east and the Volusia County MSA to the 
north. We realize that that is a heavy lift.
    In September 2015, we began the process of lobbying the 
Federal Government to combine the metro Orlando MSA with 
Brevard and Volusia. This was broadly supported by Federal, 
State, and local elected officials, and numerous letters were 
written to the FEMA assistant administrator of grants programs, 
the OMB statistician, and the OMB Office of Information and 
Regulatory Affairs. You have a list and copies of the letters 
in your materials.
    With attacks in places like Boston, San Bernardino, 
Orlando, Dallas, and other places, most recently in New York, 
New Jersey, and Minnesota, there is a need to have an overall 
increase in UASI funding across the Nation. An overall increase 
in UASI funding would expand DHS's ability to fund the top 100 
high-risk areas from 85 percent to 90 percent or better of the 
areas with the most risk. Areas like Central Florida would no 
doubt make the list. Congressman Mica has expressed support to 
increase funding Nation-wide.
    In 2016, the Orlando MSA was 34 on the list of 100 when 
only 29 were funded. Local and State agencies have equipment 
needs and the requisite training for use of the equipment, 
including mobile command centers, surveillance equipment, 
tactical weapons, armored vehicles, and explosive ordnance 
detection is important.
    In closing, I thank you for allowing me to speak, and I ask 
the committee to analyze the current MSA methodology formula 
and the data used in the formula to reflect current threats and 
vulnerabilities.
    Thank you.
    [The prepared statement of Sheriff Demings follows:]
                 Prepared Statement of Jerry L. Demings
                           September 21, 2016
    Good Morning Chairman Michael T. McCaul and Members of the 
committee.
    It is indeed an honor and a privilege for me to provide testimony 
today during this hearing to discuss ways to ``Stop the Next Attack: 
How to Keep Our City Streets from Becoming the Battleground.''
    I am not here to be a doomsday reporter, but I do believe that our 
Nation has experienced a paradigm shift in our global war on terror. 
There have been numerous recent violent incidents on U.S. soil, which 
indicate that terror subjects have brought the fight to our homeland. 
My community, the Metropolitan Orlando area, experienced such an attack 
on June 12. Members of my agency responded to assist the Orlando Police 
Department in the initial response involving an active shooter. The 
incident remains under investigation by the FBI, but it is believed 
that a lone gunman killed 49 innocent people and injured another 53 
persons in the Pulse Nightclub incident. The incident began shortly 
after 2 a.m. when Omar Mateen began randomly firing at patrons of a 
club that catered to the LGBTQ community on a night designated as 
``Latin night.'' Like no other time in our history, if we are going to 
be successful at reducing the attacks on American citizens by violent 
extremists, Federal, State, and local law enforcement authorities must 
improve: (1) Access to information, (2) the sharing of actionable 
intelligence information that can be used to identify and arrest 
subjects involved in plotting attacks before an attack occurs, and (3) 
funding for counterterrorism efforts to include training and equipment.
    As it relates to access to information, the Department of Homeland 
Security (DHS) should reassess its policy on precluding State and local 
law enforcement agencies from having access to the ICE database that 
identifies individuals as being in this country illegally. Officer and 
public safety become a major issue in instances when law enforcement 
officers do criminal history checks in the field through the National 
Crime Information Center (NCIC) and they are not made aware of a 
subject's immigration status.
    Immigration enforcement is clearly a function of the Federal 
Government, and sheriffs do not seek this authority. Our concern is for 
the safety of our officers. When officers/deputies encounter someone 
and the person is here illegally, that person assumes the ``police'' 
already know they are illegal and have the authority to arrest and 
deport them. Local and State law enforcement should know who they are 
dealing with even if they cannot arrest for immigration violations.
    As it relates to sharing of information, Florida sheriffs have seen 
increased communication from the Department of Justice and DHS to State 
and local law enforcement concerning critical incidents. Assistant 
Secretary Heather Fong at DHS' Office of Partner Engagement has been a 
driving force behind this and most sheriffs and police chiefs have been 
invited to participate in conference calls following significant 
National and international events affecting law enforcement and public 
safety. I am the current president of the Florida Sheriffs Association 
and give credit to DHS Secretary Johnson and FBI Director Comey for 
increasing communication with State and local law enforcement and for 
pushing facts to sheriffs directly as opposed to sheriffs receiving 
information from the National news media.
    In order for American law enforcement to prevent, respond to, and 
mitigate domestic terror attacks, analytics, and training will be 
integral to stopping the attacks from proliferating. Central Florida 
has been the benefactor of numerous projects funded in previous years 
by the Urban Area Security Initiative (UASI) grant program. We have 
been working for the past 2 years to get DHS funding restored to our 
region. Primarily, Members of Congress from both the House and Senate 
have worked with Orlando Police Chief Mina and me in these efforts. We 
have petitioned DHS and FEMA to reassess the Orlando-Kissimmee-Sanford, 
Florida MSA, and the need to strengthen and secure the Central Florida 
region from another terror attack like the Pulse Night Club incident.
    The Central Florida region has been fortunate to receive 
approximately $45.5 million in UASI Funding since 2004. The Orange 
County Sheriff's office has managed the funds. The funding received 
prior to 2013 was critical to our region's ability to prevent, protect, 
respond to, and recover from not only terrorism, but a broad range of 
other threats and hazards. We are only as good at preventing a terror 
attack as the quality of information we receive about that attack.
    I will briefly discuss one of our most notable regional 
partnerships in Florida called the Central Florida Intelligence 
Exchange, also known as the CFIX Fusion Center. It is located in 
Orlando and is 1 of only 3 Fusion Centers in Florida. It serves as a 
central repository of databases that are currently being used by the 
Florida Department of Law Enforcement and other Federal, State, and 
local law enforcement agencies. In addition to its counterterrorism 
focus, CFIX serves as an ``all hazards'' fusion center, assisting 
agencies in the mitigation and assistance needed to recover from 
hazards such as hurricanes and other natural disasters. CFIX assists 
with investigation of crimes that possibly contain nexus to terrorist 
activity or other homeland security issues. In other words, fusion 
centers located throughout the country are pivotal to our Nation's 
mission of ``stopping terror attacks.''
    Due to lack of funding, some critical needs of CFIX have been lost. 
We have reduced the number of analysts, which could have worked to 
provide intelligence information that could prevent a terror attack. 
One example of a success story involving CFIX occurred when CFIX 
assisted the U.S. Marshalls, the United States Secret Service and Coast 
Guard in locating a disgruntled citizen who made concerning statements 
about the President prior to the launch of a space Shuttle Endeavor 
mission and numerous other instances in which they provided information 
with a nexus to National security.
    Through the National Infrastructure Protection Program (NIPP), we 
received UASI Funding for a video camera surveillance project in the 
tourist corridor, downtown Orlando, and in areas near the University of 
Central Florida. Due to a loss of funding, we have not been able to 
expand the project into areas around our top tourist destinations.
    Prior to June 12, 2016, we held more than a dozen UASI-funded 
training exercises over the past 12 years. I believe the agencies 
responding to the Pulse incident flawlessly initiated an active-shooter 
response because of training paid for through historical UASI funding. 
(You have a list of the training exercises in your material.) We train 
to respond as a region to a terror attack or other disaster. About 150 
of my deputies along with multiple other local law enforcement, fire, 
and EMS agencies responded to assist the Orlando Police Department 
during the Pulse incident. Because of the infrastructure connections in 
our region, it is a natural to have a regional capability and 
vulnerability assessment. Regional preparedness, response, and recovery 
efforts are also pivotal to the mission of stopping and/or reducing 
terror attacks.
    Presently, FEMA uses the Office of Management and Budget's (OMB) 
geographical boundaries defined in the Federal Register when 
calculating risk scores for MSAs. We believe that the boundaries of the 
Orlando-Kissimmee-Sanford MSA should be expanded to include the Brevard 
county area to the east and Volusia County MSA to the north.
    In September 2015, we began the process of lobbying the Federal 
Government to combine the Metro Orlando MSA with Brevard and Volusia. 
This was broadly supported by Federal, State, and local elected 
officials and numerous letters were written to the FEMA assistant 
administrator of grant programs, the OMB statistician and the OMB 
office of Information and Regulatory Affairs. You have a list and 
copies of the letters in your materials. I don't have time today to get 
into the details of the methodology used in assigning risk, but we 
suggest that DHS include domestic and international visitors in the 
equation and not just permanent resident population in the scoring.
    With attacks in places like Boston, San Bernardino, Orlando, and 
Dallas, there is a need to have an overall increase in UASI funding 
across the Nation. An overall increase in UASI funding would expand 
DHS's ability to fund the top 100 high-risk areas from 85% to 90% of 
the areas with the most risk. Areas like Central Florida would no doubt 
make the list. Congressman Mica has expressed support to increase 
funding Nation-wide. In 2016, the Orlando MSA was 34th on the list, 
when only 29 were funded.
    Local and State agencies have equipment needs and the requisite 
training for use of the equipment including mobile command centers, 
surveillance equipment, tactical weapons, armored vehicles, and 
explosive ordinance detection.
    In closing, thank you for allowing me to speak and I ask the 
committee to analyze the current MSA methodology formula and the data 
used in the formula to reflect current threats and vulnerabilities in 
Central Florida.
   fema/homeland security/regional training and exercises since 2004
Training
  <bullet> USAR Tech Search Course
  <bullet> USAR Structural Collapse Training
  <bullet> HazMat 160-Hour HazMat Tech Training
  <bullet> USAR Rail Rescue at TEEX
  <bullet> USAR Wide-Area Search Course
  <bullet> HazMat CBRNE Medical Tech Course
  <bullet> At the Point of the Spear: Fire Service Leadership
  <bullet> USAR Safety Officer Course
  <bullet> Hazardous Material Tech Course
  <bullet> HazMat Officer Competency Lab Course
  <bullet> FLETC Internet Protocol Camera Traininig
  <bullet> OnSSI Ocularies Basic Certification
  <bullet> Hazmedic Course
  <bullet> Hazardous Materials Incident Command
  <bullet> USAR Training Props
  <bullet> Intel Training
  <bullet> Community Health Training
  <bullet> FBI HazMat Training
Exercises
  <bullet> UASI Evacuation Plan Tabletop Exercise
  <bullet> UASI Brevard County Full-Scale Exercise
  <bullet> UASI Osceola County Full-Scale Exercise
  <bullet> UASI County Full-Scale Exercise
  <bullet> UASI PRND Functional Exercise
  <bullet> UASI Tabletop Exercise
  <bullet> UASI NBA Functional Exercise
  <bullet> UASI Community Medical Surge Tabletop Exercise
  <bullet> Operation Crash & Surge Full-Scale Medical Exercise
  <bullet> HazMat & USAR Plume of Doom Tabletop Exercise
  <bullet> Urban Search and Rescue ADSAR Mobex Exercise
  <bullet> HazMat and USAR Operation Vanishing Mosquito FSE
  support letters for increased uasi funding and reassessment of the 
    orlando central florida metro statistical area for the risk of 
                           terrorism attacks

------------------------------------------------------------------------
                   Date                                Letter
------------------------------------------------------------------------
8/22/16...................................  Letter to Congressman John
                                             Mica from Orange County
                                             Sheriff Jerry L Demings
7/28/16...................................  Letter from Congressman John
                                             Mica to Orange County
                                             Sheriff Jerry L Demings
7/25/16...................................  Letter to John Roth,
                                             Inspector General, DHS,
                                             from Committee on Oversight
                                             and Government Reform
                                             Chairman and Members, Jason
                                             Chaffetz, John Mica, Ron
                                             DeSantis, Elijah Cummings,
                                             Tammy Duckworth, and
                                             Stephen Lynch
6/29/16...................................  Letter from Congressman John
                                             Mica to Orange County
                                             Sheriff Jerry L Demings
6/17/16...................................  Letter from Congressman John
                                             Mica to Orange County
                                             Sheriff Jerry L Demings
6/15/16...................................  Letter to Jeh Johnson,
                                             Secretary DHS from Senators
                                             Marco Rubio/Bill Nelson
1/29/16...................................  Letter to Jeh Johnson,
                                             Secretary DHS from
                                             Congressman Alan Grayson
1/27/16...................................  Letter to Jeh Johnson,
                                             Secretary DHS from
                                             Congressmen John Mica/
                                             Daniel Webster
11/4/15...................................  Letter to Brian Kamoie,
                                             Assististant Administrator,
                                             FEMA Grant Programs, DHS
                                             from Orange County Sheriff
                                             Jerry L Demings
3/27/14...................................  Letter to John Carter,
                                             Chairman, House Committee
                                             on Appropriations, DHS,
                                             from Congressman Daniel
                                             Webster
2/12/14...................................  Letter to Jeh Johnson,
                                             Secretary DHS from
                                             Congressmen Bill Posey,
                                             Corrine Brown, Daniel
                                             Webster, Alan Grayson and
                                             John Mica
------------------------------------------------------------------------

    Chairman McCaul. Thank you, Sheriff.
    The Chair recognizes Commissioner Miller for his opening 
statement.

STATEMENT OF JOHN MILLER, DEPUTY COMMISSIONER, INTELLIGENCE AND 
       COUNTERTERRORISM, NEW YORK CITY POLICE DEPARTMENT

    Mr. Miller. Thank you, Mr. Chairman. Thank you for your 
continued help and support with our programs, as well as our 
New York delegation, Peter King, who we are always in close 
touch with, and Dan Donovan, who comes right out of the New 
York City law enforcement community, as does Kathleen Rice.
    Good morning to the Members of the committee.
    First, I would like to thank the Chairman for giving us 
this opportunity to talk about this. When we talked about this 
testimony several weeks ago, the idea was to talk about the 
emerging and changing threat and how we might respond to a 
terrorist attack. Nobody had any idea that we would be sitting 
here within days of an actual terrorist attack talking about 
how we did respond.
    New York City has been the target of more than 20 terrorist 
attacks, including this one. Some have succeeded, but most have 
been prevented through the use of good intelligence and a 
robust counterterrorism program.
    The threat we face today has grown out of a group called 
al-Qaeda that morphed into an international network of 
affiliates, one of which turned into a movement on its own 
called ISIL that has pioneered exploiting every advantage of 
globalization.
    Today, while al-Qaeda operates in the shadows, occasionally 
sending out one-way videos to adherents, ISIL operates out of 
Syria using the internet and social media tools to deliver a 
call to arms to those who would travel to Syria and fight for 
ISIL, there or in Iraq, but also understanding how to leverage 
propaganda that includes compelling videos, two-way 
conversations over social media applications, both encrypted 
and unencrypted, an on-line magazine filled with messages 
extolling violence, giving useful, tactical critiques on 
attacks that have already happened, including the Orlando 
shooting, and giving instructions on how to make bombs.
    These are specific custom-designed messages to urge people 
who could not come to Syria to fight, or Iraq, to kill 
Americans here. The message is hold the promise, to those who 
are receiving them, of valor, of belonging, of empowerment. 
These messages containing these false promises resonate 
particularly with recruits who are failing in life, living in 
the margins, who have low self-esteem, or feel isolated.
    No city in America has been the target of as many plots and 
attacks as New York City. No city has paid as much in blood as 
we did on 9/11. In the 15 years since, no city has invested as 
much human capital and money in the effort to prevent, if 
possible, or respond, if necessary, to a terrorist attack.
    We thank this committee. We thank our appropriators on 
other committees. We thank the Department of Homeland Security 
and Secretary Jeh Johnson for steadfastly continuing to support 
those efforts with funding. That said, the NYPD and the city of 
New York invest significant amounts of our own budget to 
support those efforts.
    This year alone, the NYPD created the Critical Response 
Command. The CRC is a highly-trained, specially-equipped 
uniformed force of over 500 officers that work full-time every 
day as a counterterrorism force in the streets of New York 
City. They protect critical locations and shift between key 
potential terrorist targets, depending upon the intelligence we 
have evaluated that day in the global threat stream.
    We have provided the same weapons and training to our 
strategic response command, the SRG, a city-wide flying squad 
that can be called on to assist our emergency service unit, 
which is a rescue-oriented but SWAT-capable unit that is our 
go-to first responders for any crisis. That adds up to 
approximately 1,800 officers with special weapons and tactics 
capabilities who are in the streets of the city of New York. 
That is unmatched by any municipal police department on the 
globe, as far as we know.
    We have also trained over 8,000 regular patrol officers in 
tactics to counter the active shooter, as we have seen this 
trend grow over recent years. Those are the officers who are 
most likely, because of their proximity in number, to arrive at 
such a scene first.
    The NYPD has also built what is widely regarded as the most 
sophisticated intelligence bureau outside of the Federal 
Government. That bureau works hand-in-hand with our Federal 
partners, particularly the FBI, the Joint Terrorism Task Force, 
and Homeland Security. Over at the JTTF in New York, we have 
over 100 detectives assigned inside the JTTF that are 
integrated and operating cross-designated as Federal law 
enforcement officers.
    The NYPD has spent over $300 million over the last 8 years, 
combined city and Federal funds, to build and maintain the DAS, 
or the Domain Awareness System. This combines a network of 
cameras across the city, over 8,000 of them, with data from our 

9-1-1 call system, with license plate readers, with radiation 
detection sensors across the city, with law enforcement 
databases.
    In the last year, under former Commissioner Bill Bratton, 
that data, which faced inwards to people like me at police 
headquarters, was pushed outward. It was turned outward to the 
people who needed the most and could use it the most, and that 
is the cop on the street. Every police officer in New York has 
access to that information from their department-issued 
smartphone. This phone is able to assess the DAS network.
    It also means during a terrorist incident, as we saw just 
this week, that having 1,500 people who work full-time on 
counterterrorism can quickly be changed to 36,000 in the 
street. We are able to push law enforcement information, 
pictures of the suspect, information we had, to every police 
officer in the street who was working when we decided to go out 
with a picture of a suspect we had probable cause to arrest. 
All of that with the power of just hitting a send key.
    Every element of those tools and tactics that we have 
discussed here today was fully exploited in the moments 
starting after 
8:30 p.m. on Saturday night when two bombs were placed in New 
York City on that evening. I also have to say that the seamless 
cooperation between the FBI and the NYPD and our Homeland 
Security partners, whether that was FBI ERT, evidence response 
technicians, working in a post blast with our crime screen 
investigators, bagging and tagging the same way, sending 
everything to the same lab, the FBI lab at Quantico; whether it 
was our NYPD bomb squad detectives working side by side with 
their SABT, Special Agent Bomb Techs, from the FBI, our 
detective bureau, our intelligence bureau, the JTTF, it was a 
force multiplier that worked that case as if they did it every 
day together, because they do.
    Thank you, and I will be happy to take questions.
    Chairman McCaul. Thank you, Commissioner Miller.
    I now recognize myself for questions.
    I think the last time I saw you, John, we were in New York 
at the 9/11 ceremony. The next day, we received an intelligence 
briefing at the intelligence unit at NYPD. Little did we know 
that within days, there would be a terrorist attack in the 
streets of New York.
    I was presented a video that I wanted to share with the 
committee that was put together by the New York Police 
Department that I think really encapsulates the threat moving 
forward, and in many ways is prophetic in terms of what we saw 
happen last Saturday.
    [Video shown.]
    Chairman McCaul. Commissioner Miller, thank you for that 
video. We saw that, obviously, last week before the tragic 
events in New York Saturday.
    What I was struck by is stay home and fight. It used to be 
come to Syria and join the fight. Are we seeing a changing, 
evolving message now coming out of ISIS, Syria to stay home and 
attack in the United States?
    Mr. Miller. I think we are. I think that the messages from 
Sheikh Adnani, especially the pre-Ramadan message which called 
on people to attack where they were, has shifted from come to 
Syria and fight with us on the battlefield to, as one of the 
messages had clearly written, it said: We love you more doing 
actions in their countries--referring to countries other than 
Syria--meaning, we would rather have you fight at home than 
come here and fight on the battlefield.
    Chairman McCaul. Which concerns me from a homeland security 
perspective because I think, as we have some success militarily 
in Iraq and Syria, we are going to see the battleground coming 
more here to the United States.
    This is a copy of Mr. Rahami's journal that was found on 
his person when he was taken into custody. I know you are 
familiar with it. He talks about the sounds of bombs will be 
heard in the streets. Praised Osama bin Laden as brother. 
Talked about Anwar al-Awlaki in Fort Hood, Texas. He talked 
about pressure cooker bombs and pipe bombs in the streets as 
they plan to run a mile. He talks about, God willing, the sound 
of bombs will be heard in the streets. Gun shots to your 
police. Death to your oppression. You continue your slaughter 
against the Mujahedeen. Be in Afghanistan, Iraq, Syria, 
Palestine. He wrote, according to his complaint--and in another 
section of the notebook he wrote that his guidance come from 
the man that you mentioned, Mr. Adnani, who was the chief ISIS 
spokesman and external operations chief who was killed by an 
air strike. He talks about killing where you are. Precisely, I 
think the evolving threat that we are facing.
    Commissioner Miller, I have to ask you this question, was 
the suspect, Mr. Rahami, at any point in time under the radar? 
Is there anything we could have done differently to have 
stopped him?
    Mr. Miller. I am sure, as in after every incident, our 
Federal partners will go backward through this case and 
reevaluate that. But based on what I have seen so far as part 
of the investigation, he seems like many suspects who came into 
contact with the system at various times and was handled to the 
extent that the system, the law and the guidelines that we 
operate under, would allow them to.
    Chairman McCaul. It is unfortunate, in many of these 
incidents--and we stop most of these things, as you know. But 
the ones that we miss, it seems like it is always after the 
fact that somebody comes forward and says, oh, I noticed he was 
radicalizing, or I saw this or that, but they fail to report it 
to authorities. I think that is probably what we will find out 
to be the case here.
    Chief Acevedo, we have a bill on the floor today 
authorizing nearly $40 million for grants to train in active 
shooting, to train in IED, to train with suicide bombers. Can 
you tell me how that could help your city and my city, the city 
of Austin, help better prepare for this type of event?
    Chief Acevedo. Absolutely, Mr. Chairman.
    As you know, that training is really key to being prepared 
to respond. Unfortunately, with the tightening budgets around 
the country, one of the first things that goes away is the 
training budget. So, from the perspective of the Major City 
Chiefs, your bill will go a long way in preparing our resources 
throughout the Nation and the big cities and throughout the 
counties.
    Without it I don't think that we can prepare to the extent 
that we need to. Fortunately for us in Austin, we make it a 
priority, and so we sacrifice, but not every city has that 
ability. I think that, for us, we desperately need the funding.
    Chairman McCaul. Thank you, sir.
    My time has expired. The Chair now recognizes the Ranking 
Member.
    Mr. Thompson. Thank you very much.
    I think, from the outset, there is no question this 
committee is absolutely committed to keeping America as safe as 
it can possibly be. A hundred percent is what we strive for 
every day. The men and women in various departments, we salute 
you for that work.
    One of the things we struggle with is when these incidents 
of the lone wolves appear. You get a lot of people after the 
fact trying to say, well, you should have done this, you should 
have done that. So now there is a discussion that, well, maybe 
we need to put more surveillance on individuals and, to some 
degree, even profile individuals.
    I think, Mr. Miller, since New York is kind of the melting 
pot, and as a practitioner of this, especially in light of the 
bartender dialing 9-1-1, saying, ``I think we got a problem,'' 
can you just kind-of explain that kind-of engagement with those 
communities, what your experience has been?
    Mr. Miller. We have worked very hard to strengthen the 
NYPD's engagement with our partners in the Muslim community. 
You cannot profile the community that you also, at the same 
time, count on to help you in these cases. We have had many 
people from the Arab-American community, from the Muslim 
community come forward and help us in various investigations 
over various times.
    In the context of that video, we have also kind-of sat down 
with a core group of our best community partners and played all 
the same propaganda to them, on the idea that most mainstream 
community leaders aren't on their computers watching these 
things, but we wanted to be able to expose them to the type of 
clever messaging and powerful propaganda that some of their 
young people might be susceptible to and work with them to try 
and figure out, how do you counter that message and what do you 
use?
    So this is a conversation with a community of partners that 
has to keep going, and you can't keep it going by separating 
them.
    Mr. Thompson. Thank you very much.
    A lot of my opening statement talks about the proliferation 
and ownership of assault weapons. Some of us have even promoted 
the notion of, why should you be able to buy an assault weapon, 
being on the terrorist watch list?
    What we are trying to do is close every potential 
vulnerability that we know of. It has nothing to do with the 
Second Amendment. It is just that if you are too bad to get on 
a plane, then it is clear in the minds of a lot of people you 
ought to be too bad to own a gun, or you should have some 
opportunity to prove that you are not.
    So, Chief Acevedo, can you kind-of comment on where that 
assault weapon and exotic guns come to play in your area?
    Chief Acevedo. Yes, sir. I mean, clearly, one of the 
challenges we have in this Nation is the proliferation of 
firearms and the fact that we use the Second Amendment as an 
excuse to not pass common-sense laws that will help keep 
firearms in the hands of law-abiding Americans of sound mind.
    I can tell you, coming from the State of Texas where the 
Second Amendment is king, I spend a lot of time talking to 
conservative members of our community; they are in favor of 
universal background checks. They are in favor of closing the 
gun show loophole, where we can watch people going in there and 
if you have the cash, cash is king, you can buy whatever you 
want.
    We have a responsibility as a Nation, I think. As 
policymakers, I would urge this body, which is the only body 
that can get it done at a National level, to celebrate the 
Second Amendment by ensuring that we take steps to ensure that 
responsible people are gun owners and not people that will do 
harm to their fellow Americans and, quite frankly, as it 
relates to mental health, that might do harm to their fellow 
Americans and themselves.
    So we need help. I know that the support is out there. I 
think that the surveys show that from the American people. At 
the end of the day, it is the will of the people, and I hope 
that this body will put the politics aside and really join the 
American people in being pragmatic and taking steps to keep 
those firearms out of the wrong hands.
    Mr. Thompson. Thank you.
    Sheriff Demings, you had 49 people killed in your county by 
someone with one of these weapons. But, more importantly, that 
individual was what we call a lone wolf, in terms of somebody 
who we could not really bring a nexus to somebody overseas or 
something like that.
    Can you, in your law enforcement experience, explain what 
the challenge is for identifying extremists in communities, 
whether you are a member of the Ku Klux Klan, whether you are a 
member of ISIL or any other entity? How does that play into 
your day-to-day law enforcement experience?
    Sheriff Demings. Thank you for the question.
    I can tell you that it is a challenge for us to identify 
the individuals who mean harm to our Nation. We are only as 
good as the information that we receive. So I believe that we 
have got to improve our analytical capabilities in sharing 
criminal intelligence information across the Federal, State, 
and local authorities.
    We sometimes see where we operate in silos. All of these 
issues tend to happen in local communities. What we say to our 
residents is that, if you see something suspicious, we want you 
to tell us about it. They are often giving information to us at 
the local level, and we push it to the Federal level. But 
sometimes, once it gets there and it is analyzed, it doesn't 
come back in a systematic way so that we can use that 
actionable intelligence information in thwarting a probable 
terror attack.
    In some cases, even as it relates to our gun laws, 
sometimes it doesn't make sense, what happens. I will give you 
an example. Just a couple of days after the Pulse nightclub 
incident in Orlando, there was a reporter who came to town, an 
international reporter from the United Kingdom, who was writing 
a story, and to prove his point, how easy it is to acquire an 
assault weapon in America, he bought one. He went to a local 
licensed gun dealer and was able to buy an assault weapon. He 
was not a U.S. citizen but at some point had been in our 
country and had some form of legal status at some point.
    Before he returned to the United Kingdom, he brought the 
assault weapon that he had lawfully purchased to one of my 
sheriff substations, and he said, ``I don't want it. I can't 
take it back into my country. The reason I bought it was to 
prove a point, how easy it is. And I am not even a U.S. 
citizen.''
    So I have said to people like Director Comey and others 
that, to me, that makes no sense. Because, as American 
citizens, if we were in the United Kingdom, we couldn't go 
there and buy an assault weapon, and so why should he have been 
allowed to buy one in our country? So somehow we have to look 
at those types of, I think, situations that occur.
    The other thing I see gaping holes in is as it relates to 
mentally ill. We have a National database that is supposed to 
have information about individuals who have been certified 
through the courts to have some form of mental illness that 
disqualifies them from buying a firearm. But, quite frankly, 
the information isn't being put into the database because of 
this lack of, I think, understanding within the mental health 
community of what constitutes mental illness. So we have to 
improve there as a country as well.
    Mr. Thompson. Thank you.
    I yield back.
    Chairman McCaul. The Chair recognizes the gentleman from 
New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I want to thank all the witnesses for their testimony.
    Mr. Miller, again, congratulations on a very successful 
weekend. I know the investigation is on-going, but I was 
actually down on 23d Street the morning after, and what you 
said about the FBI and the NYPD is true. You couldn't tell one 
from the other, they were working so closely together.
    What I would like to follow up, though--and I really 
wouldn't want this to get caught up in the semantics, but from 
the Ranking Member, if we use terms like ``profiling'' or 
whatever, there is also good police work, though.
    I mean, you and I are old enough to remember--I am older 
than you, but--that when they were going after the mafia in New 
York, the FBI and the NYPD were in the Italian American 
community, not because they didn't trust Italian Americans; 
they knew that was where the threat was coming from.
    Also, when they were going after the Westies, whether it 
was Hell's Kitchen or every bar on the west side of Manhattan, 
there were police undercovers, there were FBI undercovers to 
try to get information. I think, as an Irish American, I didn't 
consider that profiling. I mean, that is where the threat was 
coming from. It was coming from the Irish American community, 
certain elements of it, even though 98, 99 percent are, you 
know, law-abiding.
    I just think, in New York, where you have a number of 
Muslim communities and neighborhoods, even if--and they are--
the overwhelming majority are cooperating and are supportive, 
but if there is going to be something happening, I don't see 
how it is considered unconstitutional or bad police work to 
have undercovers, to have informers, the same as is done when 
you are tracking down any other type of crime where it is 
coming from a particular community or organization.
    Mr. Miller. We operate under the Andrew guidelines, and the 
Andrew guidelines specifically say that we operate on 
information, on behavior, on actions, but we do not place 
undercovers or spies or people into the community to watch 
people who are engaged in completely Constitutionally-protected 
activities, whether that is at a restaurant, a house of 
worship, or a meeting.
    We are also not lacking for business. I think, 
Representative King--and there are very few in Congress who 
know as much about this as you do, given the time that you have 
spent in this field--that, in the 15 years since 9/11, through 
every suspicious encounter that has been reported, we have 
amassed a large number of names, incidents, reports. When they 
are filed away, as you see in the other day or in the Orlando 
case or--you can pick your case--there are two schools of 
thought on that.
    One is, well, if you already knew about this person, why 
weren't they stopped? That is one that often doesn't consider 
the thresholds that we have to operate under. The other is 
that, if you have that many contacts with that many people over 
that period of time, it is increasingly likely that the next 
time something happens it is going to involve somebody that you 
knew, heard about, investigated, bumped, or otherwise checked 
out.
    Now, that is a good thing, in that when you are assessing 
who to look at first and they come up in those records, it 
gives you a basis to go forward. Well, it is also a liability, 
in that people have somewhat of a misconception about our 
ability to put someone under surveillance, leave them there 
indefinitely.
    You know, in the case of the New York case, these were 
contacts that happened in 2014 with no demonstrable thing that 
happened in between that time and this time. That is not--and I 
am not prejudging this. Somebody will go back through it with a 
fine-tooth comb, because we always do. But it is not realistic 
to say every time someone comes on the radar you are going to 
be able to follow them or their friends and associates for an 
extended period of time while you have investigations that are 
on the front burner involving people who are demonstrably 
dangerous.
    Mr. King. Would it violate any guidelines, for instance, 
with Rahami--and we are assuming a hypothetical here--there 
were at least, I believe, two encounters with the FBI, one 
because of the travel, one because of the assaults against 
family members and his father saying he was a terrorist--for 
the local police to be told about that so that they would be 
alert to anything else they might hear?
    I am not saying any warrantless search, I am not saying 
hounding the guy, but I am just saying for the street cop to 
say, ``Keep your eyes and ears open on this guy'' in case you 
hear something about him, that he would be at a different level 
than just the ordinary citizen walking down the street.
    Mr. Miller. Based on my understanding of our guidelines, it 
wouldn't. Based on my recollection of the Attorney General 
guidelines and the FBI's Domestic Intelligence Operations 
Guidelines, I don't believe it would either.
    Mr. King. OK. Thank you, Commissioner. My time is just 
about up. I just wanted to get that on the record because of 
many of the unfair allegations that have been made against the 
NYPD over the years from certain organizations and from the 
media.
    Thank you for your outstanding service. Appreciate it. 
Thank you.
    Mr. Miller. Thank you.
    I would just point out for the record that the independent 
inspector general of the NYPD just completed an audit of 10 
years of Intelligence Bureau records and determined that 100 
percent of the records they evaluated showed that there was a 
proper purpose and basis for every investigation and that they 
were carried out within those guidelines.
    Mr. King. I would just make the editorial comment that 
reporters got the Pulitzer Prize for talking about the abuses 
by the NYPD, even though they have been cleared on all those 
charges.
    I yield back.
    Chairman McCaul. The Chair recognizes the gentleman from 
New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    First, just let me say, with respect to the New York City 
Police Department, the literature since 9/11 has clearly 
established that the New York City Police Department 
counterterrorism intelligence is probably the most effective in 
all the world. It is extraordinary work that is done in 
counterterrorism.
    Unfortunately, you never get credit for what didn't happen. 
What you do every day is preventing things from, in fact, 
happening. So it is great, great work. As I say, the terrorists 
only have to be lucky once; counterterrorism officials have to 
be lucky all the time.
    But it is also worth noting here that, since 9/11/2001, a 
period of 15 years, 94 people were killed by Islamic 
terrorists; 157,000 Americans have been killed with guns. You 
are 3,000 times more likely to be killed by an American with a 
gun than a terrorist.
    Every day in America, 90 people die from gun violence. In 
Orlando, 49 people dead, 53 people wounded--deadliest attack on 
U.S. soil since 9/11. One shooter, semiautomatic rifle, 
semiautomatic pistol, legally purchased. One shooter, 49 people 
dead, 53 people wounded.
    Newtown, Connecticut, 26 people dead, 20 kids between the 
ages of 6 and 7, first- and second-graders, dead. Most had 
multiple wounds in them. Six adults were also killed, most of 
whom were diving in front of the kids to shield them from the 
shooter. One shooter, legally purchased guns.
    Sensible gun safety, as has been mentioned here, has been 
rejected by this Congress despite the fact that 90 percent of 
the American people support sensible gun safety legislation. 
You know, people often invoke the Second Amendment to justify 
the continuation of this hell, but the Framers of our 
Constitution, in establishing the Second Amendment, could never 
have anticipated this kind of hell.
    The topic today is ``Stopping the Next Attack: How to Keep 
Our Cities from Becoming a Battleground.'' Well, they are 
already a battleground. There is a moral contradiction. When 
you have, as the Ranking Member said previously, a terror watch 
list, these are individuals that are known to be involved, in 
some degree, in terroristic activity, yet at the same time they 
are allowed to purchase guns--semiautomatic rifles, 
semiautomatic pistols, the very guns that are found in all of 
these mass shootings.
    So you can't, with any credibility, hold a hearing with the 
topic ``Stopping the Next Attack: How to Keep Our Cities from 
Becoming Battlegrounds'' without fundamentally addressing what 
most people on this panel agree with, and that is very 
commonsensical gun safety measures.
    I would ask you, first of all, Deputy Commissioner, to 
respond.
    Mr. Miller. Well, I think that the broad law enforcement 
support for the assault weapons bill at the same time as the 
crime bill that was signed on the White House lawn and then 
expired and the conversation that came out of that for years 
with no change was one indicator.
    Cynical people would have said, when a Member of Congress 
is shot down in a public place, that would change. But the 
conversation after the shooting of Gabby Giffords went on for 
about 3 weeks and faded away.
    Some might have argued that when our citizens are being 
killed in their movie theatres, at a Batman movie, that that 
would have ended the discussion. Colorado passed a tough gun 
law, and the Governor was run out of the State after that.
    Some might have said, when they kill our kindergarten 
children in their schools, that that would be the straw that 
broke the back. But we have talked about that for a while and 
nothing happened there either.
    So, in some measure, when you consider the fact that the 
greatest loss of life on U.S. soil since 9/11 and the 
terroristic attack happened at 2 o'clock in the morning on a 
place off the main path, an LGBT club, on Latino night by a 
lone-wolf gunman, you have to ask yourself, have we figured out 
who we are, and do we want to change?
    Chairman McCaul. The Chair now recognizes Mr. Rogers from 
Alabama.
    Mr. Rogers. Thank you, Mr. Chairman.
    I thank the witnesses for being here and their 
participation.
    I also want to commend New York. If you look at what 
happened with the recent investigation after this attack and 
previous attacks and then what happened with the London 
bombings and the Spain bombings, closed-circuit television was 
critical in the investigation and the quick apprehension of the 
suspects in every case. I would urge all of our major 
metropolitan areas to emulate New York in the placement of 
those closed-circuit cameras.
    But I did want to ask you all, my experience has been, just 
as was case here in New York, that local law enforcement really 
has to have a good relationship with the Federal officials for 
everybody to be successful. What do you see as ways that we can 
improve communication between State and local officials and the 
Feds that you need to interact with? Do you get a chance to 
exercise regularly with them? If not, why not?
    Just start with Mr. Bouchard and Mr. Demings.
    Sheriff Bouchard. Thank you, Congressman. That is a very 
good question.
    We do interact and work extremely well with our Federal 
partners, but the communication is a salient point that we have 
raised for a number of years. In fact, on many of the 
conference calls, the preamble is, ``Well, you have probably 
heard more already about this incident in the news than we are 
going to talk about today.''
    You know, most of us, I presume, have a Top Secret 
clearance sitting at this table, if not at least Secret. There 
is a need, I think, for real-time information sharing on that 
capability. That is not in place.
    Years ago, probably a decade ago, I suggested that they 
create such a platform, and an encrypted cell phone was created 
as such. I paid for it for my Homeland Security Division chief, 
myself, and we had a few of them. Lo and behold, find out they 
don't really work. So we no longer have a device to communicate 
real-time on a direct, pressing need. We almost have to go back 
to the days of runners, where somebody has to go----
    Mr. Rogers. You are talking more about equipment. I am 
talking more about personal relationships. Do you all have a 
chance to interact and develop personal relationships so you 
know Bob at the FBI or whoever is the key guy----
    Sheriff Bouchard. Yes.
    Mr. Rogers [continuing]. You need to get in touch with? Do 
you have a chance to do that?
    Sheriff Bouchard. We do. We do. We have great 
relationships. But when I am talking about the equipment, if 
there is a timely need for sharing information, there is a lag 
because, literally, we have to go to the same location to 
communicate that.
    I had a meeting in my State and the sheriff from Los 
Angeles was there and had something unfolding that was at a 
Secret level, and we were looking for Coast Guard stations to 
get him in communication. That is a problem, when terrorists 
can communicate on an encrypted platform and we can't.
    So the relationships are there. I would say that one of the 
challenges that we face, though, across the country is we build 
a great relationship with our SACs, and then they are moved, 
usually about every 2 years. They come and go very frequently. 
I know professional development and organizational needs are 
important, but it is a challenge once you develop a deep 
relationship. I think I have been through probably six SACs in 
my tenure.
    Mr. Rogers. OK.
    Sheriff.
    Sheriff Demings. The only thing that I would add is I 
talked about the fact that we have a fusion center in Orlando, 
and, because of that fusion center, it forces us on a daily 
basis to work across jurisdictional lines. That is not the case 
in most cities around America. We only have 3 in the State of 
Florida when we have multiple large metropolitan areas.
    So I do believe that there is a need to increase the number 
of fusion centers, because, again, they work on the prevention 
side, collecting information and data that can be used to 
prevent an attack. This whole conversation today is about 
preventing an attack, so I believe that that has to be part of 
the solution. It forces us to work together, and it also allows 
us to gather better information--actionable intelligence 
information, that is.
    Mr. Rogers. Chief.
    Chief Acevedo. In terms of our relationship in Austin, we 
have a phenomenal relationship with our local SAC.
    Mr. Rogers. Do you have a chance to exercise with these 
folks?
    Chief Acevedo. We have not exercised because funding is an 
issue. That is why, again, I hope that 5859 passes, so we can 
actually do some more exercising with them.
    But in terms of information sharing, it is better today and 
the relationship is better today than it has ever been for my 
region. However, I think that that depends a lot on the SAC. 
Fortunately, I have a good SAC and I have had good SACs, but I 
also push back pretty hard when they are not sharing 
information. But I don't think that that is still the case 
Nation-wide, that it is not even across the country.
    Mr. Rogers. Thank you.
    My time has expired. Thank you all for what you do for our 
country.
    Chairman McCaul. The Chair recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    I would like to thank the witnesses for their testimony 
this morning.
    I also would like to recognize the 29 individuals that were 
injured this week and pray for their speedy recovery, and also 
the two brave officers in Linden, New Jersey, who engaged the 
culprit, Officer Hammer and Officer Padilla of the Linden 
Police Department, which is in my district.
    Many gun safety laws are enacted at the State level. So 
while you might live in a State with strict gun laws, such as 
mine, your communities might remain vulnerable because of the 
lax gun laws in neighboring States. How does this patchwork 
approach to gun control affect your policy efforts?
    Mr. Miller, if you could take a stab at that?
    Mr. Miller. We have, if not the toughest gun laws in the 
Nation, in New York City, certainly one of them. But none of 
our guns come from New York City. That has been true for many 
years. We have mandatory minimum sentencing. We have a rigorous 
permitting process. But most of our guns come from out of 
State.
    Mr. Payne. The ability and the access to these assault 
weapons in other States really poses a great potential for acts 
such as we have seen over the course of the last several years. 
When I talk about it with my colleagues that feel that there 
could be a potential infringement on the Second Amendment 
rights, you know, getting an understanding of what we end up 
against in our communities is something that can be horrific, 
as we saw in Orlando.
    Always my argument to people in law enforcement that 
sometimes do not see the wisdom in trying to get these weapons 
off of the streets is, you know, what happened in Dallas was my 
greatest fear, that--you know, I would try to tell them, one 
day, these weapons are going to return and be used against you. 
In Dallas we saw that happen.
    That is the reason that we fight to try to make sure that 
these weapons are not available to people that should not have 
them and, really, I don't think should be available to the 
public. They are only going to be used against law enforcement. 
To think that a terrorist would have the upper hand on our law 
enforcement does not bode well with me.
    The events of last weekend, you know, really have put the 
country on edge. The information we received was constantly 
being updated, and, you know, the situation was very fluid. I 
think lessons learned from Boston helped us in this situation, 
and it is really incredible to hear how fluid the situation has 
become through interagencies.
    Can you talk about the Federal Government and how it shared 
relevant information with you with respect to, you know, the 
different law enforcement organizations involved?
    Mr. Miller. From the moment the explosion happened, I 
called the police commissioner and I called my FBI counterpart. 
In the time it took me to drive to the scene, my FBI 
counterparts were there. We came up with a game plan.
    We received continuous information throughout that night 
with the development of every clue--a phone that led to a 
subscriber name, a fingerprint that led to an individual, 
devices that were connected from the New Jersey case to other 
devices, people who were connected to devices through physical 
evidence. There was nothing hidden, nothing held back, nothing 
too Classified.
    We sat together in the same command post. Customs and 
Border Protection and DHS played a vital role in helping us 
understand who was who, through their records and contacts. I 
would say it was a model of cooperation.
    To respond, in part, to Mr. Rogers' question, do we 
exercise together, we train together all the time, particularly 
in the active-shooter realm because it is the emerging threat 
with our Federal partners, but we work together every day. We 
eat together, we drink together. We don't sleep together yet, 
but that is just because we don't sleep much.
    Mr. Payne. Well, thank you.
    As I yield back, Chief Acevedo, thank you for acknowledging 
the hard work that Mr. Donovan and I have done in 
interoperability and communications for all of your 
departments.
    I yield back.
    Chairman McCaul. The Chair recognizes Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Gentlemen, the four of you all are in law enforcement. Do 
you all carry firearms? Not in here, but do you carry a firearm 
daily?
    Sheriff Demings. Yes.
    Mr. Duncan. I think I am getting a head shake ``yes'' from 
everyone. There wasn't a hand raised or a----
    Chief Acevedo. I do on duty, but a lot of times I don't off 
duty.
    Mr. Duncan. OK. Thank you.
    The Ranking Member injected gun control into this because 
that is the narrative of the left. For the record, he is an 
avid participant in the shooting sports. He is actually a great 
shot. I have shot competitively against him. So he exercises 
his Second Amendment rights.
    We are here in these ivory towers of Government protected 
by law enforcement. There is a guy outside the door in a 
uniform, the Capitol Police, with a firearm to protect us.
    If more gun laws were the answer, more restrictive gun laws 
that are affecting the Second Amendment rights of Americans, 
the south side of Chicago would be the safest place on Earth. 
You could leave your doors open, you could walk the streets at 
night, and you could allow your children to play in the front 
yard. But yet that is not the case. More gun laws are not the 
answer.
    There are 357 million Americans--or 357 million firearms in 
America in the hands of law-abiding citizens. The problem we 
need to look at--and let me tell you about the law-abiding 
citizens. When seconds count, the police are just minutes away. 
They have the ability to draw a firearm to protect themselves, 
their families, their property, their neighbors, their 
Constitution, if necessary.
    So we have had gun control injected into this debate, but 
let me tell you that I think the problem is gun-free zones, 
because we are restricting where law-abiding citizens can carry 
firearms. A gun-free zone, San Bernardino, State property, 
prohibited from having a firearm. No one in that room could 
protect themselves. Orlando, it was a bar. Nobody could carry a 
firearm in there. Charleston, South Carolina, mass shooter, 
gun-free zone. Columbine, Sandy Hook, they were all gun-free 
zones.
    No one had access to a firearm, so we were counting on law 
enforcement to be there. Law enforcement can't be everywhere, 
nor would we want you to be there. So the Second Amendment is 
there for us to protect ourselves and our family.
    So we have had the No-fly list injected into this. There 
are 200,000 people on the No-fly list, 80 percent of which are 
foreign nationals. So the other 20 percent are United States 
citizens. We can look hard at them. But when you think about 
the No-fly list, how in the world do you get on the No-fly list 
and how in the world do you get off the No-fly list? Where is 
the due process afforded Americans under the Fifth and Sixth 
Amendment to know what your accusation is, what the charges 
are, who is accusing you, have a chance to interview witnesses, 
have a chance to defend yourself, and get off that? But too 
many Americans are on the No-fly list and they don't even know 
it until they go try to fly somewhere. That is Fifth and Sixth 
Amendment due process rights that are guaranteed us.
    So we are relying on Big Government to actually take care 
of us, to find these terrorists. But guess what? They missed 
it, America. They missed it in Orlando. That guy was suspected 
of terrorism. They missed it in New Jersey. Dad said, ``I think 
my son is involved in terrorism.'' FBI investigated him for 2 
months and said, ``Oh, your son is not involved in terrorism.'' 
Dad said yesterday, ``Hello?''
    They missed it in Fort Hood. He had ``Soldier of Allah'' on 
his business card. There were signs and signals for Major Hasan 
all over. Missed it in San Bernardino, because the wife was 
actually--there were a lot of questions about how she even came 
into this country. They missed in Boston. The FBI was informed 
by Russia, for all intents and purposes, that somebody had been 
traveling over there and possibly been in contact with 
terrorist organizations and may have gotten some training. 
Missed it, and we had loss of lives.
    What we continue to do is talk about gun control debate 
when we need to talk about the Second Amendment and the 
Constitutional rights, the Fifth and Sixth Amendment rights to 
due process. But yet we will continue to allow unfettered 
immigration from unvettable countries? They just granted 
citizenship to 858 individuals who were ordered deported or 
removed under another identity when, during the naturalization 
process, their digital fingerprint records weren't available. 
Just gave them citizenship.
    We cannot rely on the Federal Government and this big 
bureaucracy to continue to try to keep us safe. We have to 
revert back, I believe, to the individuals, the law-abiding 
citizens in this country. We have to look at the gun laws that 
are out there now that prohibit law-abiding citizens from being 
able to carry firearms in areas where they could protect 
themselves. We need to allow school marshals and some sort of 
program in schools that are now gun-free zones so somebody in 
that school will have access to a firearm to protect our 
children.
    You know, we will continue to allow terrorists to come in 
here, we will continue to attack the Constitutional rights of 
Americans, we will continue to have restrictive gun control 
laws in the State and an effort in the country. If you look at 
Mr. Higgins' statistics and you take out suicides, the number 
goes way down. If you take out criminal violence related to 
drugs, that number goes way down. But yet we will continue to 
have this debate, and we will continue to have a sit-in on the 
floor of Congress to shut down the process over this issue. We 
will continue and invite somebody who made something that 
looked like a bomb, brought it to school, but now it is a 
clock, and we invite him into the White House. It is a good 
thing the guy in New Jersey didn't say, ``Oh, that is just a 
clock.''
    Mr. Chairman, I appreciate this hearing, but we have gotten 
off track from the get-go, talking about violating the Second 
Amendment rights of Americans, when we won't have a real 
conversation about the gun-free zones, the people that are on 
the terrorist watch list and how they get off, the No-fly list 
and how that might be used.
    I got a novel idea. If you are on the No-fly list and you 
are a foreign national--80 percent are--goodbye. No-fly, 
goodbye. Let's get them out of the country. They are identified 
as terrorists, they are foreign nationals, why are we keeping 
them in this country?
    But I don't think a single person on the terrorist watch 
list or the No-fly list committed any of these acts of terror 
that we are talking about. If I am wrong, correct me.
    Gentlemen, I am going to look at you right now, and I am 
going to thank you for what you do to keep our citizens safe. 
Law enforcement in this country is under attack, but we have 
got your back, as the Chairman said. We appreciate the men and 
women in blue that are walking that thin blue line. Thank you 
for what you do. It is not an easy job. People in the Third 
congressional District of South Carolina appreciate what you 
do. God bless you.
    I will yield back.
    Chairman McCaul. The Chair now recognizes Mr. Richmond from 
Louisiana.
    Mr. Richmond. Thank you, Mr. Chairman.
    Let me just start with, people make the assertion all the 
time that more guns are the answer--guns in schools, guns in 
churches, guns in movie theatres. We have armed guards in 
banks, and banks get robbed every day, and people get killed in 
banks every day. So, to the extent that people think that is 
the solution, I think you are dead-wrong.
    But, as we talk about law enforcement, we talk about having 
your back. Let me tell you what having your back means. We had 
a committee meeting about combating terrorist recruitment and 
about dispelling the propaganda that comes from ISIS, or ISIL. 
I simply wanted an amendment that said, why don't we target 
sovereign citizens? They shot me down. Well, let me tell you 
what sovereign citizens did in the mean time. They shot down 
three officers in Baton Rouge, injured another couple.
    So when we start talking about having your back, it is 
making sure that we have the intelligence and we focus on 
everything. We are smart enough to do two and three things at 
one time--that is, to combat lone actors, to combat terrorism, 
to infiltrate cells and track them. But it is also to see what 
is the real threat to your officers and deputies on the street.
    If you want to talk about your officers and your deputies, 
you have to talk about sovereign citizens that have killed more 
police officers than anybody else. But this committee doesn't 
want to talk about it. In fact, this committee went out of its 
way to ignore the issue.
    Let me just tell you about Baton Rouge, as we talk about 
having our law enforcement's back. You had one actor, one sick 
individual, with a long gun. He was better armed than the 
police officers that responded, because his long gun, the 
bullets would go through our police officers' vests, and our 
police officers who responded responded with pistols that 
wouldn't go through his vest.
    So the question becomes, are we funding our police 
departments like we should? Are we making an investment in our 
law enforcement in an extent to help them protect lives?
    So, as we do this today--and you still have to talk about 
the Department of Homeland Security and this committee, combine 
it with Judiciary. We had two unfortunate incidents this week 
where, again, an African American male was killed in an 
incident involving law enforcement. But we spend more time 
talking about whether Colin Kaepernick is standing for the 
National Anthem, but we don't want to talk about why he is 
kneeling.
    So, in this committee, we are having this hearing, which is 
not a new hearing; we have it all the time. In Judiciary, the 
other committee with jurisdiction over something like this, we 
are talking about impeaching the IRS Director. At some point, 
we have to be bigger than this and we have to be focused on 
issues that we see.
    No one is diminishing terrorist attacks, because I think 
there is one common goal between everybody, and that is to 
figure out a way to stop them. But when you start titling our 
hearing with ``Stopping the Next Attack: How Do We Keep Our 
Cities from Becoming the Battleground,'' duh, wake up. It has 
been the battleground. It is a battleground on a number of 
fronts.
    But if we are going to truly talk about how we fix it, we 
are going to have to put the resources so that we can share 
intelligence, we can arm our law enforcement. We have to make 
sure we have the capabilities to stop an attack before it 
happens. But we also have to realize the magnitude of the 
incident gets exaggerated if the person has an assault weapon.
    So I will ask one question, and whoever wants to answer it, 
please have at it.
    The attack in Minnesota, where 10 people were injured, tell 
me what that looks like if, instead of a knife, he has an AK-47 
or an AR-15 with a high-capacity magazine. Does anyone want 
to----
    Chief Acevedo. It looks like a lot of dead Americans that 
were simply shopping.
    I won't even respond to Mr. Duncan, because I don't think 
it needs to be responded to here today. I will respect this 
office and this institution; I will just take the Fifth and 
leave it at that.
    Mr. Richmond. Well, let me just ask this last question. Do 
sovereign citizens pose a real threat to your officers that 
answer traffic stops, serve subpoenas, and just walk around 
every day?
    Sheriff Demings. I believe sovereign citizens pose one of 
the most significant threats to civilian law enforcement today.
    A couple of years ago, I had one of my sergeants shot. He 
survived. Was shot by an individual who fancied himself as a 
sovereign. Many of these incidents that you have referred to, 
in which there were lone gunmen, if you delve into their 
background, you will see that perhaps they, too, subscribe to 
the sovereign ideology.
    Mr. Richmond. If no one else wants to answer, I will yield 
back. Thank you, Mr. Chairman.
    Chairman McCaul. The Chair now recognizes Ms. McSally from 
Arizona.
    Ms. McSally. Thank you, Mr. Chairman.
    As you are doing your jobs and outreach and trying to 
address this new threat that is metastasizing and we have 
individuals being radicalized on the internet to take action 
into their own hands, one of the things I would like to focus 
on is specifically the phenomenon of girls and women becoming 
radicalized, becoming jihadists, trying to travel to Iraq and 
Syria.
    I held a roundtable with my colleague Kathleen Rice on this 
phenomenon months ago because there is a very specific dynamic 
going on here that we haven't seen before, where we have girls 
and women not just being victimized and recruited but also 
being hardened jihadists themselves and actually leading some 
of those efforts.
    Just for some numbers, of the 250 Americans who have 
attempted to go to Syria, 1 in 6 are women. Almost a fifth of 
them are teenagers, but more than a third of the teenagers are 
girls.
    So we are seeing this new phenomenon. We have seen some 
cases in the media: Three teenage girls from Colorado who were 
intercepted in Germany trying to travel over there; a 19-year-
old from Minnesota who we found when she was in Syria; a 
Mississippi former cheerleader, honor student, whose father is 
a police officer and a Navy veteran, trying to plot to head 
over to Syria with her fiance. This is a new phenomenon.
    So do your outreach efforts in your communities have 
anything focusing specifically on women and girls that are 
becoming radicalized, or are they just part of the general 
efforts for outreach? Any of you who would like to answer.
    Mr. Miller. We have watched this very closely, certainly 
mindful of the number of travelers we have seen. As you see 
from the propaganda videos we have kind-of collected and put 
together for the Chairman, they are very sophisticated in their 
pitches, in their outreach. You can't ignore the San Bernardino 
case as an example of----
    Ms. McSally. Right.
    Mr. Miller [continuing]. Radicalization targeting females 
in the United States. We also have an active prosecution now 
involving two women in New York City who were planning to use 
pressure-cooker bombs to launch a plot that we interdicted last 
year in a year-and-a-half-long undercover operation.
    So this is something we are very concerned with and part of 
our discussion with the community while we kind-of struggle 
with them to come up with what is the counter-narrative and who 
can deliver it.
    Ms. McSally. Right.
    Anyone else want to----
    Chief Acevedo. In Austin, Texas, a couple of years ago, we 
actually had a family--a husband, wife, and children--with 
JTTF, arrested at the Houston International on their way to 
Syria through Turkey.
    So, for us, the key is not specifically addressing women 
but addressing young people through educational programs, 
through economic opportunities. I don't think you see too often 
people that are educated wanting to blow themselves up. That is 
the exception, not the rule. So youth programs and educational 
and economic opportunities is one of the things that we do in 
our department.
    Ms. McSally. Right.
    What we learn now is ISIS is using a very specific and 
different message to recruit girls and women.
    Sheriff Bouchard, do you have something to share?
    Sheriff Bouchard. You are correct, and that is clearly a 
concern on many levels because it brings in a whole demographic 
that typically is less likely to be as scrutinized because so 
many of the bombers and terrorists in the past have been 
fighting-age males.
    I worked on a case study in the Middle East, a suicide 
bomber attempt of a female. As they broke it down, they 
actually analyzed the psychological reasons why she was put 
into that position and thought it was her only thing that she 
could do to, I guess, feel better about herself.
    So the disaffected and those that are vulnerable to a 
message of ``this is a higher purpose, and you will be valued 
if you do this'' are the ones, generically, I think, that we 
need to have more outreach and more connectivity to to look to 
interdict that message and bring them away from that siren 
call, if you will.
    Ms. McSally. Great. Thank you.
    My second question is about, Sheriff Bouchard, you 
mentioned you don't have real-time information sharing. This is 
a real concern to me.
    We have broken down some stovepipes since 9/11 across the 
Federal agencies. We have done some work between Federal, 
State, and local, but I think we have a long way to go. Fusion 
centers are an important part of that, but some fusion centers 
are not as good as others, and it comes down to relationships.
    I actually had a bill, H.R. 3503, to address improving our 
fusion centers and giving higher access to security clearances 
to you all and your teammates so that you have better 
information out on the front lines. It was passed unanimously 
in the House, being held up in the Senate right now.
    But if you were in charge, what would you do to--and I only 
have a little bit of time, Sheriff Bouchard--break down those 
stovepipes? Some of it is policy, some of it is clearances, 
some of it is equipment. But what you would you do in order to 
make sure you have all the information that you need?
    Sheriff Bouchard. Well, I think you have touched on a lot 
of the important issues as it relates to how we better 
communicate, but it gets back to, you know, the methodology 
sometimes in an urgent situation. As I mentioned, I have a Top 
Secret clearance, but I don't have an instantaneous ability to 
receive information without actually physically bringing us 
together. In this day, in terms of the technology that is 
available and we see used by terrorists, it is a bit 
frustrating to literally have to drive some place to get, you 
know, actionable information.
    Ms. McSally. Yes, that is insane, and we need to work on 
that together.
    I know I am out of time. Does anyone else have anything to 
say on that issue? We can follow up.
    Chief Acevedo. Yes, ma'am. I think it is really important 
that--police chiefs have gone through a background 
investigation presumably, have been licensed peace officers. 
They are known entities. I don't think we are any threat to our 
Nation. Sadly, the majority of police chiefs in this country do 
not have a Top Secret clearance.
    Ms. McSally. Right.
    Chief Acevedo. I think one of the things that we need to 
look at is, if there is an investigation or an issue in an area 
of responsibility for a police chief, we need to look at how we 
can provide that information for that person who ultimately is 
responsible for the safety of that community outside of the 
clearance process.
    So that is just food for thought.
    Ms. McSally. Absolutely.
    Chief Acevedo. Because the truth of the matter is a lot of 
police chiefs are in the dark about investigations in their 
area of responsibility.
    Ms. McSally. That is something we definitely need to 
improve, Mr. Chairman. I yield back. Thank you.
    Chairman McCaul. Thank you.
    If I could, a quick follow-up. I know in Boston the Boston 
police commissioner told me that he could not even talk to his 
4 police officers on the Joint Terrorism Task Force about the 
investigations. We have made efforts to change that. There has 
been talk of an MOU to change that.
    Chief, has that changed?
    Chief Acevedo. I don't have a TS clearance, and so I will 
just say this: That I am still the police chief in Austin, 
Texas, and whether my people work for the JTTF or not, they 
work for the people of Austin. My direction to them is that the 
day that they don't tell me something that we needed to know--
they don't work for the Federal Government, they work for 
Austin, and they are withholding information at their own 
peril.
    Fortunately, we have a pretty good relationship with our 
local SAC, but it still is an issue. I think the answer is that 
we not only have a right to know, we have a need to know, 
regardless of the clearance level of that investigation, for 
our areas of responsibility.
    Chairman McCaul. I couldn't agree more.
    I mean, Commissioner Miller, is that the state of play in 
New York?
    Mr. Miller. In New York, we don't have those issues. I 
think it is in part because, with over 100 detectives on the 
Joint Terrorism Task Force, there is very little information 
that we are not either handling ourselves or have access to.
    However, understanding the discussion that occurred after 
Boston, Major City Chiefs, Intelligence Commanders Committee, 
Chuck DeWitt worked together with partners to draw up--to 
redraw, Mr. Chairman, the MOU about how a Joint Terrorism Task 
Force operates with its local partners in terms of access they 
are entitled to, clearance levels, computer access, and so on.
    That new MOU, I believe, is in effect now. So that should 
bring improvement to the situation. I think we can count on 
Major City Chiefs to kind of anecdotally check on that to make 
sure it is being enforced.
    Chairman McCaul. Let me just pledge my support to help you. 
I have talked to the FBI about this MOU. I know it has gone 
back and forth. But it just seems to me that any commissioner 
or police chief that has officers on the task force should--at 
least the chief should be briefed on those cases. You have the 
street intel. You have the intelligence on the streets.
    The Chair now recognizes Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    To each of you, let me just say that I am profoundly 
grateful, because I can just listen to all the challenges that 
you are experiencing on so many different levels from so many 
different areas and how safe we are, relatively speaking. I 
know it is because you all are dedicated. You interact with 
your colleagues wherever you need to. You are smart at what you 
do, and you are keeping us safe. I thank you from the bottom of 
my heart.
    I also want to recognize that the great State of New Jersey 
and the Linden Police Department was very helpful in addressing 
the situation that we encountered this weekend, working with 
New York. Sometimes my wonderful State gets overlooked, Mr. 
Chairman. We are small, but we are mighty.
    The other thing I would just like to say, two things 
quickly, and I have one question.
    No. 1 is that I can't hardly believe that more guns 
anywhere should be the answer to a safer community or society, 
school, or any other place. That is just an absolute ludicrous 
thought on anybody's part.
    No. 2 is I think that you all have expressed in some way, 
shape, or form that the proliferation of illegal guns in the 
communities are harmful not only to the community but even to 
your law enforcement and that that is not the direction in 
which we should continue to go.
    Following up on that, I wanted to highlight something with 
you, Chief Acevedo. In today's testimony and at a meeting with 
the Homeland Security Advisory Subcommittee, you stated that 
right-wing extremism is as much of a threat as the threat 
inspired by foreign terrorist organizations.
    In fact, I have an article that goes back, I guess, to 2014 
in which you express that as it relates to someone who was part 
of an association, a self-defined associate of some priesthood, 
some Phineas----
    Chief Acevedo. Phineas.
    Mrs. Watson Coleman [continuing]. Phineas Priesthood.
    Do you still believe that that is one of our greatest 
threats, coming from right-wing extremism? Also, do you 
recognize and feel that extremism even on the left is as much 
of a great threat? May I have your comments on that?
    Chief Acevedo. Thank you. Absolutely. I get beat up in my 
great State because any time you mention right-wing anything 
you get beat up. But extremism, whether it is left or right, is 
just that, extremists.
    The sovereign citizen movement in this Nation is alive and 
well. If you look across the landscape, you will see police 
officers that have been shot and killed by members of this 
movement.
    The only reason I mentioned that in the Homeland Security 
Advisory Council to the Secretary and to this body is that we 
don't want to be myopic as we look at the threat picture and 
the threat domain around our country. It is not just from 
foreign extremists; it is alive and well in our own Nation. If 
you look at the totality of the victims of the threat, those 
right-wing extremists really do, just like left-wing extremists 
with bombs in the 1970's and so forth, do pose a significant 
threat.
    Mrs. Watson Coleman. So I believe that this committee has 
certainly given the attention to the foreign extremists. I am 
wondering if, from your vantage point, are there sufficient 
resources available to you in support, even in grants and other 
funding, that help you with identifying those threats that are 
posed by both--by extremists who are not foreign-born 
extremists?
    If you would all just give me yes, no and, you know, what 
you would like to offer, because I only have a few minutes, I 
would appreciate that also. Starting with you, Mr. Miller.
    Mr. Miller. The grants make no distinction as to domestic 
terrorism versus foreign, so they can be applied equally. So it 
is not an issue for us.
    Chief Acevedo. For us, funding continues to be an issue. We 
were a UASI city that lost its funding, and any funding that we 
can get. I mean, we are down to one-third. Unfortunately, we 
know that there are a lot of competing interests and a lot that 
you all have to fund, but we need help.
    The militia movement and the sovereign citizen movement is 
alive and well in our Nation, and I think it is an absolute 
threat to the safety of our communities.
    Sheriff Bouchard. As the commissioner said, the grants and 
the training relates to any kind of threat. All threats, all 
hazards was actually some of the verbiage we worked on many 
years ago, so we apply that standard when we do our training.
    Sheriff Demings. Funding remains an issue for us as well. I 
believe that it is absolutely pivotal that we continue the work 
across the silos, if you will, to get information. So I am 
looking forward to it. Again, in our community, we had a home-
grown violent extremist who attacked a nightclub there in 
Orlando.
    Mrs. Watson Coleman. Thank you.
    As I close, it is good to know that we could use these 
resources on any of the areas that we have talked about. I 
guess the question then becomes where there is no problem 
because you can, is it applied appropriately?
    Thank you very much. Thank you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Mr. Carter from 
Georgia.
    Mr. Carter. Thank you, Mr. Chairman. I thank all of you for 
being here. Obviously, this is extremely important and the work 
that you do is extremely important. I want to preface my 
remarks, my questions by saying I am not trying to be 
adversarial or ask you to be adversarial. I am just trying to 
get to the root of the problem or just to improve things. Maybe 
there is not really a problem, but how can we improve things?
    I would like to start with you, Mr. Miller. Mr. Miller, I 
can only imagine, being in the high-threat environment that New 
York City is, that you probably deal with a greater number of 
threats than we truly realize. I suspect that is the case. My 
question to you is this--and it is about communication. We all 
understand how incredibly important it is, particularly in this 
area, particularly between the Federal authorities and the 
local authorities. I just want to ask you, has the Department 
of Homeland Security supported your mission? Have they done 
that and especially in regards to emergency communications?
    Mr. Miller. So the Department of Homeland Security, 
particularly under Secretary Johnson, has been the most 
accessible Department of Homeland Security I've known since 9/
11, having done this job in both Los Angeles, when Art was in 
California, and New York City. So that is in terms of our 
ability to work with DHS. If we ask them for something, they 
work hard to get it for us.
    When you are part of communications, are you talking about 
the passing of information or are you talking about actual 
interoperability?
    Mr. Carter. I am talking about everything.
    Mr. Miller. We get a steady stream of products from DHS. I 
am fortunate enough, and it may be because of the size and 
scope of New York, to have two DHS intelligence advisers 
assigned to the NYPD to make sure that that feed and flow is 
early and often.
    Mr. Carter. OK. Let me put it this way. How can we improve 
it? I am always, you know, telling my staff we have got to get 
better, we have got to get better. How can we make it better?
    Mr. Miller. I am, unfortunately, a satisfied customer. I 
have got nothing.
    Mr. Carter. OK. Fair enough.
    Mr. Miller. I mean, from that Department on that issue.
    Mr. Carter. Fair enough.
    Mr. Miller. I will talk about money till the cows come 
home, but on that issue, I am good.
    Mr. Carter. Look, I understand that. I understand it takes 
money, but it also takes implementation, it takes 
communication. It takes so much more. That is what I am trying 
to get to here, is the communication factor.
    Mr. Miller. I would suggest one answer to that question, 
which is Heather Fong, who is the assistant secretary for law 
enforcement was a police chief. She understands what we need, 
she understands how we need it, she understands what we need it 
for. The history of that position, before Heather and Louis 
Quijas, had been a long line of people who did not come from 
law enforcement: Assorted generals and military people and 
other appointees.
    Mr. Carter. Right, right. OK.
    Mr. Miller. I would urge, in the future, that for the sake 
of communications, that person always be a law enforcement 
officer.
    Mr. Carter. All right, good. I think that makes perfect 
sense.
    Chief Acevedo--I am sorry, whatever--it is just not a 
popular name in south Georgia. I apologize. Nevertheless--chief 
of the Austin, Texas, police department, over 2,500 law 
enforcement officers and personnel to protect your city. Have 
you ever worked with the Federal Law Enforcement Training 
Center? Are you familiar with FLETC?
    Chief Acevedo. Yes, sir. I have actually worked there and I 
have actually instructed there. It is a great facility, and I 
think they offer a lot of support to State, county, and local 
law enforcement. Yes, I have.
    Mr. Carter. Have any of the others had any experience with 
any of the Federal Law Enforcement Training Centers? We have 
got one in our district, in the first Congressional district in 
Glynco, Georgia. We are very proud. I have toured it, I have 
seen it. I have seen the work that they do. It is a great 
facility, a great opportunity to utilize resources. I am just 
wondering if you have had that experience.
    Sheriff Demings. We have had that experience, and I have 
completed training there as well as members of my staff. But 
going back to your question about DHS and perhaps----
    Mr. Carter. Please.
    Sheriff Demings [continuing]. What can be done. The 
metropolitan Orlando area, when we were on the list to receive 
UASI funding, we did so when the Secretary had the discretion 
to select different metropolitan areas to receive funding. He 
no longer has that discretion. It is rank ordered. Perhaps it 
would be good for the Secretary to have some discretion, 
particularly when you have an incident like what we had. When 
we are 34 on the list and only the top 29 receive funding, if 
the Secretary has some discretion there to fund different 
regions based on what has occurred most recently, I think that 
would assist in many ways.
    We are similarly situated as Austin in that we once 
received funding and then it was discontinued.
    Mr. Carter. Right. Well, again, let me----
    Yes? Is it OK, Mr. Chairman?
    Chairman McCaul. Yes.
    Sheriff Bouchard. I would like to also thank you for the 
question. Obviously, we have heard a bit about the real-time 
communications. New York is probably a little bit different 
because they are collocated. Even though we are part of the 
fusion center and I have people assigned there, it is not 
collocated with my headquarters. Therefore, the real-time 
communication gap necessitating a drive.
    But there is other kinds of communication information that 
does not and has not for years taken place that Sheriff Demings 
mentioned about information coming to the deputy on the street 
that stops somebody. That is an officer safety issue. Even if 
we are not empowered, and we are not asking to be empowered, to 
be in charge of deportation, we should be empowered with 
information----
    Mr. Carter. Absolutely, absolutely.
    Sheriff Demings [continuing]. To let the deputy know that 
that person may be an additional threat to him or her on the 
side of a dark road for reasons that they don't even know. It 
goes deeper than that. I have been bringing this same topic up 
for over a decade.
    When someone gets booked into our jails--sheriffs Nation-
wide run the jails--we don't get real-time information, in most 
of those facilities, the status of anybody, or information as 
it relates to even criminality being illegally in this country.
    When it comes to reimbursement for someone that is and 
comes from the Federal Government, it is still a phone call to 
find out--unless you are participating in certain programs--a 
phone call to find out if anybody is eligible for 
reimbursement, but they won't even tell you who.
    Mr. Carter. That is great.
    Sheriff Bouchard. Unjointed.
    Mr. Carter. Thank you for your answers. That is exactly 
what I wanted to hear. That is exactly the kinds of things we 
need to be working on to get better. We always want to get 
better. Thank you for what you do. It is extremely important.
    We want to help. That is why we had this hearing today, is 
to find out what you just described to us. Thank you.
    Thank you, Mr. Chairman. I appreciate your indulgence.
    Chairman McCaul. Thank you.
    The Chair recognizes the gentlelady from California, who 
represents San Bernardino, Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman.
    First of all, I want to thank all of you for working so 
hard and diligently to keep our communities safe. I know that 
your job is not easy and I know that you are--there are critics 
of the work that you do every single day, but we do appreciate 
everything that you do.
    For Deputy Commissioner Miller, you talked about data from 
9-1-1 systems in New York and how that is part of the 
intelligence that you have on potential terrorist members of 
the community. Can you explain what that entails and how is 
that data collected? Does it come through the 9-1-1 system? 9-
1-1 dispatchers are also a part of that communication system. 
Can you talk to us a little bit about how that process works?
    Mr. Miller. So in the NYPD, like most police departments, 
the 9-1-1 system feeds into a computer-assisted dispatch system 
where calls are summarized on a keyboard as they come in and 
sent to computers in police cars over the police radios and now 
to these handheld devices.
    As the calls come in and the call takers take them, they 
can stack up in a dispatcher's queue as they are received. 
Whereas where the officers are receiving them directly, they 
are going direct to this device even before they come over the 
radio. It has reduced our response time by a full minute and 
change in certain areas of the city. That is one element.
    The second element is the ability to harness the power of 
this data as it is correlated, which is you get a 9-1-1 call of 
an assault in progress in an apartment, possible domestic 
violence. When you look at the call on the phone, instead of 
just what you get over the police radio, it will tell you who 
called, what is the callback number. If you touch that callback 
number, you get the complainant on the phone. You can----
    Mrs. Torres. Critical information about the location and 
who may live there, if it is a targeted member or someone that 
has been identified?
    Mr. Miller. Yes. It is more about that information than 
terrorist intelligence. It is a daily tool the police can use. 
However, in the throes of a terrorist incident, it can become 
vital, because now you can push information instantly, and 
pictures and videos, to the police.
    Mrs. Torres. How are your 9-1-1 dispatchers trained to pull 
this information out of your callers during the interview 
process?
    Mr. Miller. They go through their PCTs, police 
communications technicians. They go through an extensive 
training process of their own and an extensive vetting process 
in being hired about working under pressure, being able to 
multitask, and so on.
    Mrs. Torres. Being able to interview potential suspects and 
potential victims of crime, nosey neighbors that may have 
intelligence on what is happening next door, someone who may be 
potentially targeting their neighborhood, correct?
    Mr. Miller. I think an example is when we were looking for 
the suspect in this latest bombing. On the floor of the 9-1-1 
center, every operator who was working that day was told, we 
are going out with this picture, you can expect a lot of 
potential sightings to come in. When you get those calls, ask 
where is the person? What are they wearing right now? Are they 
carrying any packages, parcels, backpacks, bags, that kind of 
thing, and to keep that caller on the line till you have the 
rest of the information. Then to transfer them to the 
intelligence operations desk so my detectives can get more.
    Mrs. Torres. Thank you so much. The reason why I am asking 
you this, if you don't know, there has been a push to 
reclassify 
9-1-1 dispatchers by the Office of Management and Budget. I 
think it is a very short-sighted decision, not understanding 
that this is a critical position for first responders. As a 
former 9-1-1 dispatcher, this is a very important issue to me.
    Mr. Miller. The 9-1-1 operator/dispatcher/call taker is the 
very first line. It is the person who gets the call for help 
first.
    Mrs. Torres. So now, let's talk about the radio system. I 
am very concerned about the San Bernardino incident. As 
officers are responding and as the dispatchers are giving them 
directions on which way to travel and suspect information, 
there was no way for them to switch to an encrypted radio 
channel. This is really important because the suspects, had 
there been more than two people involved, they could have 
positioned themselves in a place to target the officers as they 
are responding.
    What do you think that we need to do from that perspective?
    Chief Acevedo. We are very fortunate in our region, is that 
our interoperability is absolutely where it needs to be and we 
have the ability to move to a unified encrypted channel. As a 
matter of fact, with our F1, Formula 1, event in November, DHS 
is going to come out and look at our inoperability. But the 
truth of the matter is that a lot of jurisdictions don't have 
that capability. It is something that needs to be worked on.
    Mrs. Torres. They don't have that capability and there is 
not enough funding for them to be able to purchase the radios 
and the systems that they need.
    I have exceeded my time. Thank you. I yield back.
    Chairman McCaul. The Chair now recognizes the gentleman 
from New York, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    Mr. Miller, you may not remember this, but I had the 
pleasure of attending a briefing with Chairman McCaul and Mr. 
King about a year ago in New York with you and the chief and 
some others. I was thoroughly impressed by the professionalism 
and the ability to get the job done, and I just want to commend 
you for that.
    One of my colleagues on the other side had mentioned that 
you don't often get credit for what you stop, but I can assure 
you that, were it not for your great leadership, that there 
would be much more problems in New York City. So I really 
applaud your efforts and I hope to continue.
    One of the things I would like to explore and one of the 
things I think this committee is uniquely positioned to help 
you all with is something I hear again and again. That is the 
lack of information sharing and the lack of breaking down lines 
of communications on the Federal, State, and local level. I 
have had a bird's-eye view of this for 20 years as a Federal 
organized crime prosecutor, first in El Paso, then in Puerto 
Rico, and then in New York State in the Syracuse area. So 
everywhere you went, one of the biggest problems was getting 
the team to work together and breaking down those barriers.
    Now, it seems like in New York necessity is the mother of 
invention. You have to break down those doors, you have to get 
working seamlessly. That is the only way you are going to even 
remotely be able to do your job.
    So I would like to have--I kind-of examined what Mr. 
Miller's situation is, it really is the exception to the rule 
because everywhere else I understand is quite different.
    Mr. Demings, I think you mentioned that you have to improve 
our analytical capabilities. You also mentioned that there is 
some--you were getting access to ICE databases, for example. 
Those are the types of things I am concerned and want to hear 
about.
    So perhaps if you could tell me, Mr. Demings, Mr. Bouchard, 
and Mr. Acevedo, what is the biggest problems that you see with 
respect to the information sharing? One the things I see first 
and foremost is how long it takes to get a background check 
done for someone joining the task force, which is maddening, 
and that has got to get changed. But what else do you see that 
we can help work on? Then perhaps at the end we can have Mr. 
Miller comment on, you know, ways we can fix it.
    The MOU system seems to be one of them. Maybe using the 
model that New York is trying to implement Nation-wide. It 
might be something we can help for us. But I would like to hear 
from Mr. Demings first, if I may.
    Sheriff Demings. Well, I will say that we enjoy a pretty 
good relationship with our Federal authorities there in the 
metropolitan Orlando area because of what we have there in 
terms of the theme parks. We have Federal agents who are 
embedded within our theme parks. So that forces us to 
communicate.
    I do believe that there is still room for improvement, 
however. The situation I talked about earlier in which a law 
enforcement officer stops someone on the streets of our Nation 
when they do--typically, we are trained to check for--run a 
National check to see if the person has any type of warrants or 
what have you we run it within our respective States as well. 
But there is nothing that comes back from that National 
database that tells us whether or not that person that we have 
encountered is illegal or not. That is something that we have 
suggested. It is a policy within ICE that perhaps that needs to 
change where we want to have access to that type of real-time 
information.
    Mr. Katko. That is something we can definitely take a look 
at. My staff, I hope, is taking notes.
    Yes, they are. Good.
    All right. Go ahead.
    Sheriff Bouchard. I would dovetail on that. I have asked 
the same question when we have had meetings with senior 
leadership with the Major County Sheriffs. Is it a policy 
issue, is it a funding issue, or is it a communication 
technology issue that the different systems don't communicate 
and integrate well? For years, we have been getting, well, it 
could be part of all three. So we have been asking these same 
questions for literally a decade at this point.
    Again, you know, some folks have said, well, we don't want 
you to have that information about status or immigration, 
because it allows you to profile. I understand the only time 
that database is queried is when we have already stopped an 
individual, and even worse, when they are already in our jail 
and we are still not told.
    So, you know, we think it is long overdue that we at least 
have access to the information for situational awareness and 
for an understanding of who we have and who is in our jail, and 
that is not there.
    Mr. Katko. Mr. Acevedo.
    Chief Acevedo. I want to take it from the Criminal 
Intelligence Enterprise for the Major Cities Chiefs and the 
Major County Sheriffs. We have been working with DHS now. I 
have been on that body for 9 years trying to get this 
enterprise up and running. It is still not where it needs to 
be. Quite frankly, we need support for our intelligence 
commanders. We have 68 intelligence commanders throughout the 
Nation. Each one of those organizations--and that is just the 
Major Cities Chiefs. Then we have how many members from the 
sheriff's department.
    We desperately need funding to support at least two 
meetings a year with these commanders because relationships 
matter. We all know that that needle in the haystack we are 
looking for is more than likely going to be found by a State or 
local or county law enforcement official. If we don't support 
our intelligence groups so they can build those relationships, 
share the information and the intelligence enterprise that is 
still not where it needs to be, and support that enterprise to 
continue to build out--we were just whispering to each other--
we are going to be dead at the rate we are going. I don't mean 
by a terrorist attack; I think of old age.
    So we want to put that on your radar, the CIE and the 
Intelligence Commanders Group, in finding funding. You know, $2 
million seems like a lot of money, but in the grand scheme of 
things, that is a drop in the bucket. DHS has the funding, but 
we need you all to, yourselves or the appropriations committee, 
to actually order them to peel off that money so we can, at the 
State, county, and local level, do what we need to do to keep 
our community safe.
    Mr. Katko. Thank you.
    Mr. Miller, now, you have a much different posture than 
your colleagues at the table. It is because of, I think, the 
fact that ground zero really is New York City for the terrorist 
targets. That helps break down some of the barriers. But can 
you share with us some of the ways in which you have been able 
to effectively share information with the local agencies that 
other jurisdictions may struggle doing?
    Mr. Miller. We engage in extensive liaison efforts, some 
programmatic. But as Chief Acevedo said, a lot of this is 
people-to-people and networking.
    First, we have the SHIELD program, which has thousands of 
members, and it is our outreach to the private security. It is 
the public-private partnership where we provide them regular 
briefing materials, constant alerts on breaking events, and 
training.
    Second, we have a Sentry program. That is not on the 
counterterrorism side, but on the intelligence side, where we 
have developed a network of partnerships in the surrounding 
areas from New Jersey to Nassau, Suffolk County, up-State, as 
far as Boston, a virtual northeast corridor of law enforcement 
partners who we bring together at a major conference once a 
year and go through a series of presentations and information-
sharing exercises, but we also communicate with regularly.
    When something happens somewhere, we pick up the phone. We 
will call that place, we have a point of contact. The same 
thing in reverse when something happens here. Both of those are 
based on email platforms, cross-communications, and information 
that we send out.
    Mr. Katko. Thank you very much.
    Before I conclude, Mr. Chairman, I just want to note for 
the record that I did not engage in the gun debate during my 
questioning.
    Chairman McCaul. We thank you for that. I think the title 
of the hearing was the threat that we face post-9/11.
    So the Chair recognizes Ms. Jackson Lee from Houston, 
Texas.
    Ms. Jackson Lee. Thank you very much.
    Again, let us acknowledge the work of all of you as first 
responders. Some of you I have had the privilege and 
opportunity to meet and maybe thank you personally for your 
work.
    Let me put on the record that the United States--DHS, for 
example, is 240,000 employees that have a range of 
responsibilities from aviation to border security. I believe 
there are 1 million firefighters, 750,000 are volunteers; and 
18,000 police departments, 556,000 full-time employees.
    To Chief Acevedo, let me thank you personally. We know the 
great work you are doing in the State. I want to commend to the 
Major Chiefs, the legislation that we submitted to a number of 
individuals called the Law Enforcement Trust and Integrity Act. 
That is just a little note for myself for you to look at it, 
dealing with police community relations. Even that has 
something to do with us working together.
    Let me also say that I think the record deserves the 
clarification on a little 12-year-old in northern Texas, if you 
will. That 12-year-old had a clock. I think what is important 
in order for us to embrace all of those who are going to help 
us solve this problem, we must understand where to direct our 
anger and questions. I want to say to the educators who saw 
something and said something, that is what we say in the 
Department of Homeland Security. But what we also want to have 
occur is that you balance it against the knowledge that you may 
have as to the individual, the family, or in this instance, a 
12-year-old child. So if you knew that you had a bright 12-
year-old child, you could have asked the child what is that and 
also see something and say something. That is how we really 
solve problems.
    I would like to also add into the record, the ``Sikh man 
who found bombing suspect, I did what everybody American would 
have [to do].'' So Sikh, obviously a faith that many Americans 
have, and could have just as well been in Oakland, Michigan, a 
Muslim, could have been a store owner.
    So I ask unanimous consent to put this into the record.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
      Article Submitted For the Record by Hon. Sheila Jackson Lee
 sikh man who found bombing suspect: `i did what every american would 
                               have done'
By Kait Richmond, CNN
Updated 12:46 PM ET, Tue September 20, 2016
    (CNN) What Harinder Bains did isn't unusual: He saw something 
suspicious and called police.
    But who Harinder Bains is makes this story special.
    Bains is the bar owner who led police to Ahmad Rahami, the suspect 
in the New York and New Jersey blasts.
    While officials haven't pinned an exact motive to the Afghanistan-
born Rahami's act, a handwritten note is said to have contained 
ramblings, including references to previous terrorists, such as the 
Boston Marathon bombers.
    That's what makes Bains actions remarkable.
    Bains is a Sikh American. And every time an attack has been carried 
out by an Islamic extremist, Sikhs--mistaken for Muslims because of 
their turbans and beards--have borne the backlash. And 15 years after 
9/11, Sikhs don't feel any safer. The hate spewed toward them, as 
immigrants, has only spiked because of the xenophobic tenor in some 
quarters these days.
    Which brings us to Bains--a Sikh man, an immigrant--who had a hand 
in stopping a suspect--another immigrant--from getting away with a 
crime.
    ``Not for nuthin' the guy who recognized & called the police on the 
bomb suspect was an IMMIGRANT named Harinder Bains. IMMIGRANT=HERO!'' 
tweeted Cecile Kazemi, echoing a sentiment repeated over and over on-
line.
    But talk to Bains and he'll tell you his actions had nothing to do 
with his Sikh faith.
    ``I did what I think every American would have done,'' Bains told 
CNN's Chris Cuomo. ``My neighbor would have done the same thing. Any 
Jewish, Christian, Sikh, Muslim. Anybody would have done the same 
thing.''
    ``I'm from Sikh faith,'' he added. ``I've been taught always stand 
up against the atrocities, any kind of persecution.''
The discovery
    On Monday morning, Bains spotted Rahami sleeping in the doorway of 
his bar in Linden, New Jersey.
    At first, Bains said he thought Rahami was a ``drunk guy'' 
wandering the streets.
    ``This has happened before also--somebody loitering in front of the 
bar. And always I go there and confront people and I yell at them. But 
somehow maybe [because] it was raining, I didn't do anything. I felt 
bad for him.''
    Later, as he was watching CNN from another business across the 
street, he recognized the 28-year-old as the person wanted for 
questioning in this weekend's bombings.
    He called 911.
    ``I just told them the guy looks a little suspicious and doesn't 
look good to me,'' Bains told ``Anderson Cooper 360.''
    When officers confronted him, Rahami pulled out a handgun and shot 
one of them.
    ``He shot twice and the glass splinters almost hit my store,'' 
Bains said.
    A shootout ensued, and then the world watched as cameras caught 
Rahami being loaded into an ambulance on a stretcher.
    It was a stunning end to a two-day manhunt.
    Bains insists he is not a hero.
    But he is using the spotlight to promote a message of inclusion: 
``We will be more stronger like this if we do everything together.''

http://www.cnn.com/2016/09/20/us/harinder-bains-sikh-faith-trnd/

    Chairman McCaul. Would the gentlelady yield? Commissioner 
Miller has a meeting with the Department of Homeland Security 
and has to----
    Ms. Jackson Lee. Well, can I talk quickly and get a 
question out to him before----
    Chairman McCaul. Well, if you have a very quick question 
for him----
    Ms. Jackson Lee. Yes, before he departs.
    Chairman McCaul [continuing]. Because he has to depart.
    Ms. Jackson Lee. Thank you, Mr. Miller. The Department of 
Homeland Security is important, but let me quickly say that my 
focus on the questioning after you leave is on intelligence. So 
my point to you is, give us the level of cruciality that good 
intelligence is coming from civilians, coming from the Muslim 
community, coming from neighbors, and as well coming from 
fusion centers or in fusion centers, and of course, JTTF, which 
is an investigatory arm. Level, the height--what level do you 
put the right intelligence at?
    Mr. Miller. I put it at the top, because having the right 
intelligence, the right partnerships, the right sources is the 
difference between having prevented 20 attacks or having had 20 
attacks.
    Ms. Jackson Lee. I congratulate you on that. I will pursue 
my other line of questioning with the other gentlemen.
    Please let me put on the record my appreciation for the 
service of Commissioner Bratton, who I know you had the 
privilege of working under and we worked with. Thank you very 
much for your service.
    Let me go to Chief Acevedo and all the other chiefs that 
are here. Thank you. My focus is to get you the money, to get 
you the money that you need and that you have come here using 
your time to come up and explain to us what we need not to look 
backward but to look forward.
    So first, Chief, tell me how effective the fusion center is 
in the State of Texas. Chief Acevedo. I am sorry.
    Chief Acevedo. Thank you for that question, and great to 
see you. Our fusion center is absolutely key. Prior to the 
fusion center and the Austin Regional Intelligence Center, we 
really didn't have a mechanism by which, when we spotted 
threats or we saw something going on, to quickly act on it. I 
can tell you, just last weekend, a member of--a former Member 
of Congress received a threat and we were able to very quickly 
track that down because of our fusion center. Then we were 
smart enough to leverage our relationship with the State of 
Texas and the Department of Public Safety where we have 
actually placed our fusion center at DPS headquarters and pay 
them $1 a year for the next 10 years, thank goodness. As a 
result, we leveraged the relationship, the assets.
    Although we don't get UASI funding, when we received that 
funding back I believe in 2008, we enter it knowing that we as 
a community and as a region were going to commit it to 
maintaining that fusion center. We are doing so at a great cost 
locally because it is that important to us and our community.
    Ms. Jackson Lee. Let me ask Mr. Bouchard and Mr. Demings 
the same question. Do we need more resources for the fusion 
center? Fusion centers, because Michigan and Florida.
    Sheriff Bouchard. Thank you, ma'am. Yes, I think Nation-
wide the fusion centers are in need of resources, because while 
all this has been going on, certainly the country has gone 
through a recession and that affected all the police agencies 
in terms of their budgets and their personnel. I cut 165 
positions during the downturn, which I still don't have back. 
Yet, you know, I want to have a commitment to the fusion 
center, but I have to fund 100 percent of it. So I have to pull 
someone out of our budget and out of our deployment and put 
them into the fusion center.
    It certainly would be helpful if there was a way to, on a 
combined platform, if they are going to be assigned basically 
to a Federal joint terrorism or joint effort, that there should 
be some funding stream. We believe it would be helpful to----
    Ms. Jackson Lee. I agree, Chief.
    Sheriff Bouchard. Add to the interaction and grow that. 
Because a lot of agencies can't afford it and even I, you know, 
find it challenging because we are asked to be on the JTTF, we 
are asked to be on identity theft with the Secret Service, we 
are asked to be on the fugitive with the U.S. Marshals, we are 
asked to be on all these different things----
    Ms. Jackson Lee. Allow me to get Mr. Demings. Thank you. I 
support you in that.
    Mr. Demings, my sympathy to you for what your community 
experienced. Your experience and what you need in a fusion 
center to gather the intelligence that you need.
    Sheriff Demings. The fusion centers, again, they play a 
very pivotal role in our State and really as it relates to 
National security. Last year, we had 66.1 million visitors who 
came to Orange County, where I am from, and that was No. 1 in 
the Nation.
    But with our fusion centers, while the primary focus is on 
counterterrorism efforts, it also has assisted in allowing us 
to manage natural disasters and also all crimes. So it is 
pivotal to preventing terror attacks but also preventing crimes 
from occurring in our community as well.
    Ms. Jackson Lee. Mr. Chairman, I have one last question and 
I----
    Mr. Katko [presiding]. It is a brief one, I hope.
    Ms. Jackson Lee. Yes, it is. Thank you, Mr. Chairman.
    Mr. Katko. OK.
    Ms. Jackson Lee. First of all, I will just make this 
statement. I do think getting guns off the street will help all 
of you, including officers, as we move toward dealing with this 
question of police community relations. But I offer a note 
about many of us who have a bill to close the gun show 
loophole. I have one that indicates to report any time guns are 
sold and you don't have the background check completed. Then 
also I think it's important to take note of the fact that we 
need to report when guns are transferred without that 
background check done. Guns do kill.
    Let me ask this last question as how you draw your 
information. That is how we keep these dangerous issues from 
happening. Tell me how valuable it is to have relationships 
with diverse communities, diverse faiths. Obviously, I am going 
to say Muslims, but a variety of people. If you talk about 
right-wing attacks, how valuable it is to have information for 
you to do your job and have people willing to talk to you to do 
your job?
    Sheriff Demings. I indicated earlier that we had 66.1 
million visitors. Well, they come from everywhere. So it is 
absolutely important for us to have relationships in the broad, 
diverse communities that we have. So we really focus on that. 
Before an incident occurs, we try to have establish 
relationships. We are depending on those relationships to 
provide the information in advance to us to perhaps assist in 
preventing an attack.
    Ms. Jackson Lee. Thank you.
    Mr. Bouchard and then Mr. Acevedo. Thank you.
    Sheriff Bouchard. Thank you. I think relationships are key 
on many levels, whether it is--we talked all threats, all 
hazards. Whether it is traditional crime or counterterrorism, 
you have to have relationships so people feel comfortable to 
call and tell you they see something odd. Maybe it is related 
to terrorism or maybe it is a drug house. They have to have 
that confidence in that relationship, you know. Everyone has 
got their own kinds of platforms, I think, to try to do that.
    I launched a thing called the Sheriffs' Relations Team, 
SRT. We try to put together community members to be a funnel, 
because sometimes, people don't feel comfortable calling the 
police, but they may feel comfortable calling people that are 
on that team that can then connect to us, and also create 
platforms that allow anonymous information to flow to us in an 
uninhibited manner.
    Ms. Jackson Lee. Thank you.
    Chief.
    Chief Acevedo. Relationships absolutely are key. I spoke to 
this earlier, Congresswoman, whether it is the immigration 
debate or whatever debate, we have to stop painting people with 
broad brushes because it puts up fences and tears down trust. 
In my community, I spend a lot of time speaking in English and 
Spanish to my immigrant community, to my Muslim community, to 
all communities, that the Austin Police Department, the only 
ones that need to fear us are those that would do harm to 
members of our community. So I think that as we move forward, 
we have to continue to build bridges to all segments of society 
instead of tearing them down.
    Ms. Jackson Lee. Thank you. I yield back.
    Mr. Katko. Thank you, Ms. Jackson Lee.
    The Chair now recognizes the gentleman from Texas, Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. First, I would like 
to thank each of you for your service to our country and to all 
of our communities. I know that Deputy Commissioner Miller had 
to leave, and I was hoping to have an opportunity to commend 
and thank him and his folks for what was a truly remarkable and 
amazing response to the terrorist events in New York and New 
Jersey this past weekend and the incredible speed at which they 
were able to identify and apprehend the suspect, Mr. Rahami. I 
think that that probably saved the lives of countless 
Americans. Of course, we are all grateful that Officer Padilla 
and Investigator Hammer are both expected to make a full 
recovery from their injuries sustained during their heroic 
actions.
    But these events really only underscore how every day 
members of our law enforcement community, your teams, say good-
bye to their loved ones and then go out and put their lives on 
the line to protect their neighbors.
    Now, unfortunately, you all are being asked to do not just 
the traditional jobs that we have always asked law enforcement 
to do, you now have to answer the call when terrorists attack. 
In that respect, you truly are the first line of defense in 
ensuring that our streets don't become battlefields. It seems 
to me that if we are asking you all to go to battle, then the 
very least that we can do is make sure that you get the type of 
equipment that you need to protect yourselves and to protect 
all of us.
    Now, I will tell you, it is not very often that I get a 
chance to talk about a Federal program that serves a noble 
purpose like that, and does so effectively, efficiently, and at 
essentially no cost to taxpayers. Those types of Federal 
programs are about as rare as a $3 bill. But the 1033 surplus 
program is exactly that kind of program. I think you all know 
that.
    It is a program that allows the Department of Defense to 
transfer certain surplus defense equipment, which has already 
been paid for, and in many cases already been used to protect 
our troops, and to repurpose that for our State and local law 
enforcement to use in counterterrorism activities and counter 
drug activities and in emergency situations that arise in our 
communities all the time. That was the case anyway, until 
unilateral executive actions by President Obama, which cut 
access to that type of critical equipment that agencies like 
yours depend on.
    In fact, many of you have had, I assume, to send back some 
of the equipment that you had already received from the 
program. Equipment like tracked armored vehicles, the kind that 
law enforcement officers in my district say have saved lives in 
crisis situations and which double as rescue vehicles in some 
circumstances. Because of the President's action here, some of 
the SWAT teams that have had the benefit of life-saving body 
armor and ballistic helmets won't have that benefit anymore, 
because they can't afford that equipment without this program.
    So I think the President's actions here are, frankly, 
inexcusable. I think he has put the safety of your officers and 
his politics ahead of the public safety.
    So in response to all that, earlier this year, I introduced 
the PLUS Act, the Protecting Lives Using Surplus Equipment Act 
of 2016, which would reverse the President's Executive Order 
and restore that program to law enforcement agencies like all 
of yours.
    Sheriff Bouchard, I want to start with you, because I 
notice you mentioned it in your opening statement. I really 
want to get your perspective on the administration's unilateral 
decision to strip this type of equipment from agencies like 
yours. In answering that, I am interested in the policy, of 
course, but I am less interested in hypotheticals. I want to 
know how this is really affecting officers like the ones that 
you manage out in the real world.
    Sheriff Bouchard. Well, thank you. Thank you for your 
leadership on this.
    We have, I think, pretty much across the board found 1033 
extremely helpful in assisting law enforcement in challenging 
days and times. I think we saw real-time evidence of that in 
San Bernardino, the use of armored vehicles and tactical 
equipment to save lives.
    In a real-life example, the day that was playing out, we 
received an order from Washington to return our tracked vehicle 
that day. It was loaded on a flatbed and the attempt is to blow 
it up. The tracked vehicles around the country are used, not 
just for dangerous armored situations, but there are also 
diverse terrain across this country: Sand and snow. Northern 
Michigan can get, you know, 5 feet of snow, and a tracked 
vehicle is the only way to get to certain situations.
    I know San Bernardino found themselves with a running 
fugitive hunt who had killed a number of people. They had to 
actually borrow I think Park's CATs to be able to drive through 
some of the deep snow. My real-life example is we had a running 
gun battle that lasted almost 12 hours with an individual who 
had killed a police officer and barricaded himself in a house. 
He was firing a fully automatic weapon, not just out the 
windows, but through the walls and striking all the neighbors' 
homes. We used armored vehicles to evacuate the neighbors and 
to obviously protect our deployed deputies around the scene as 
we continued that running gun battle all night long.
    Toward the end of that battle, we wanted to insert into the 
second story. The only way we could do that was with an armored 
vehicle that actually had a ramp to a second story. That 
armored tracked vehicle was recalled by the Federal Government. 
Our region no longer has the ability to have a ramp to a second 
story in an armored capability. So that literally was saving 
lives that night, and was taken and is intended to be 
destroyed. So that is the kind of situation we are facing.
    I will just go a step further. I think most of the real 
problems are now coming from the rule makers. I said I am the 
point person on this for Major Counties Sheriffs of America and 
I have been in more meetings that I can count. In one of the 
meetings, there were 37 people in the room, two of us were 
full-time law enforcement.
    So the people making rules actually was asked the question 
in one of these meetings, what caliber is 223? The people 
making the decisions don't know the equipment or the tactics 
used with this equipment, and they get to decide how and when 
and where we use that. I think that is a problem. They are 
writing rules that are rather extensive. They keep changing 
them. They have changed them a number of times. They haven't 
been formalized, but they are going to be backdated to October 
of last year, and we don't know what the rules are yet. At one 
point, it was we had to train our whole agency on a specific 
set of training, department-wide. Not the people that used it 
or were authorized to call it out, but the whole agency. So 
much of this is driven by perception. It is incredibly 
frustrating.
    You know, they talk about--militarized tracked vehicles 
were removed because the looked too militarized, but you can 
still get armored vehicles with wheels. Well, that doesn't go 
to the tactics necessary or the terrain. I had to turn in 12 
bayonets because they thought we were fixing bayonets, I guess, 
and charging homes. They were 12 chrome bayonets used by the 
honor guard at funerals. So we had to go out and buy the 
bayonets for the honor guard that the Federal Government 
recalled. So much of this is driven by perception, not by the 
reality of use or by who is making those decisions. It is 
incredibly frustrating.
    Mr. Ratcliffe. Thank you, Sheriff. Based on the answer that 
you just gave me, would you agree with me that the President's 
decision to eliminate this program is jeopardizing the safety 
and well-being of your officers?
    Sheriff Bouchard. I certainly would agree with that 
statement. In fact, I said that, after San Bernardino, the 
sheriff, a friend of mine, said they came prepared and America 
is less prepared, as we sent back our armored vehicles that 
same day.
    Mr. Ratcliffe. Thank you, Sheriff. I am out of time.
    Chief, I saw you nodding your head in response. So I want 
to give you a chance to comment on this if you----
    Chief Acevedo. I will be very brief. But whether it is a 
1033 program or asset forfeiture, we need to deal with 
individual departments if they abuse or misuse the equipment or 
the assets, and not paint the entire profession and hold the 
entire profession accountable with a broad brush.
    You remember the MRAPs? Everybody hates them. Oh, they 
invoke images of Iraq. And Chairman McCaul and I had a press 
conference in Austin where--we didn't get one for Austin 
because my SWAT team said it is too big for our city 
configuration. But I said, when you have floods, and we are a 
State prone to flooding, we need those MRAPs to rescue people. 
Not a month passed when we had some major flooding in Central 
Texas. Guess what the PD just south of me used? An MRAP, to 
rescue kids that were stuck inside an elementary school that 
had basically flooded all around it.
    So it is not the equipment, it is--which needs to be used. 
So, absolutely, the 1033 and asset forfeiture, hold the 
departments accountable that misused the equipment, and let's 
not paint the entire profession with a broad brush.
    Mr. Ratcliffe. Thank you, Chief.
    I yield back.
    Mr. Katko. Thank you, Mr. Ratcliffe.
    I want to thank the witnesses for their valuable testimony 
and for the Members for their questions.
    Before I conclude, I want to, first of all, thank all of 
you. Being in law enforcement for 20 years, when I hear what 
you discuss, I kind-of miss it, to be frank. But I want you to 
get some comfort out of this that your words are not falling on 
deaf ears. We have heard time and again over the last several 
months in other hearings about we need to do a better job of 
sharing information. We need to do a better job of getting 
State, local, and Federal agencies on the same page, especially 
with respect to background checks and information sharing. We 
are mindful of that and we are in the process of doing things 
about that. So your testimony does help.
    The fusion center issue really bothered me. I did not 
realize that was such--there were so many cuts from the fusion 
centers. That is very troubling, given the fact in the last few 
years, where we are now up to over 1,000 ISIS-related 
investigations Nation-wide in all 50 States. It is not a time 
to be paring it down, it is time to be plussing it up. We need 
to take a look at that and we need to find the funding to make 
that happen.
    Last, with respect to your colloquy with Mr. Ratcliffe, we 
have to give you all the tools you need to make things 
necessary--to keep you as safe as possible and to make you do 
as an effective job as you possibly can. We can't do that when 
you start cutting things. So we have to be mindful of that. No 
matter what happens going forward with the election, we need to 
convince the administration, whomever it is, that you need to 
be properly supported. This is not a time for cuts. This is a 
time for at least maintaining what you have or plussing it up, 
because the American people deserve to be safe. We have to give 
you the tools to keep them safe.
    So I commend you all for the job you do. To find that 
needle in the haystack every day is a brutal task. You know, I 
wake up every day worried about things I learned on the 
committee. I can't imaging what you all go through every day. 
So I thank you for what you do.
    The Members of the committee may have some additional 
questions for the witnesses, and we will ask them to respond to 
these in writing. Pursuant to committee rule 7(e), the hearing 
record will be held open for 10 days.
    Without objection, the committee stands adjourned. Thank 
you, gentlemen.
    [Whereupon, at 1 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Ranking Member Bennie G. Thompson for Art Acevedo
    Question 1. This year, Texas implemented its open-carry law. Do 
open-carry laws, and other lax gun laws, create additional demands on 
police resources? How so?
    Answer. Response was not received at the time of publication.
    Question 2. You note in your testimony that the availability of 
firearms ``haunts police chiefs every day.'' Do you think that the 
increased threats posed by the proliferation of firearms deters 
qualified individuals from joining law enforcement or serves as an 
incentive to leave law enforcement?
    Answer. Response was not received at the time of publication.
    Question 3. Chief Acevedo, Austin no longer receives UASI funding. 
Can you expand on some of the capabilities you have lost or have had to 
pursue less ambitiously because Austin is no longer a UASI city?
    Answer. Response was not received at the time of publication.
    Question 4. The International Association of Chiefs of Police has 
previously distributed officer vulnerability tips to limit assaults 
against police officers while on duty. These tips ranged from officers 
wearing their vest, proper vest fit, physical readiness, mental 
readiness, situational awareness, and officers getting to know their 
community. How effective is this kind of guidance when police officers 
are essentially out-gunned by people with illegal and military-style 
firearms?
    Answer. Response was not received at the time of publication.
    Questions From Ranking Member Bennie G. Thompson for Michael J. 
                                Bouchard
    Question 1a. In wake of the 2015 attack at the military recruiting 
center in Chattanooga, Tennessee, you called on members of the military 
to carry concealed weapons to combat possible threats. Your department 
assisted in offering classes to military members to obtain a concealed 
carry license.
    Is this still an on-going initiative by your department?
    Question 1b. How much does it cost your department to perform this 
kind of services?
    Answer. The Oakland County Sheriff's Office was proud to offer 
Concealed Pistol License (CPL) classes to those who were active 
military. Along with that, many veterans participated in the program as 
well. In August 2015, we held three classes which served over 60 
individuals to receive the training that is mandated in the State of 
Michigan for someone to receive a CPL. While we have not held any 
additional classes specifically for the military, we offer regular 
monthly CPL classes at our agency taught by our firearms instructors. 
Further, the Sheriff's Office has been working with the legislature on 
legislation that would mandate military personnel to be on-duty at all 
times with a firearm at military installations. As of now, many 
military bases are still not equipped to face a threat as they did in 
Chattanooga. It is imperative that we provide our armed forces who are 
sworn to protect our country with the tools necessary to also protect 
themselves.
    These classes were put on through partnerships and sponsorships 
from the community. The firearms instructors volunteered their time, 
the range was donated by a local business, and the food was donated 
through a local restaurant. Without these donations, it would cost us 
$1,200.00 per class for the instructors, $500+ for the facility, and 
another $400+ for the food for the 8-hour class required by law.
    Question 2. The International Association of Chiefs of Police has 
previously distributed officer vulnerability tips to limit assaults 
against police officers while on duty. These tips ranged from officers 
wearing their vest, proper vest fit, physical readiness, mental 
readiness, situational awareness, and officers getting to know their 
community. How effective is this kind of guidance when police officers 
are essentially out-gunned by people with illegal and military-style 
firearms?
    Answer. Vulnerability tips can be helpful however, the fact of the 
matter is that the recall of certain types of controlled life-saving 
equipment has undoubtedly left America's law enforcement less prepared 
and at a disadvantage to protect local communities from active 
shooters, terror attacks, and dangerous situations. As noted in the 
August 2, 2016 COPS/LEOMF report, ``Deadly Calls and Fatal 
Encounters,'' in all of examined Officer Needs Assistance calls, 
officers were shot as they manned perimeters when a suspect barricaded 
themselves, as they assisted in the search for an armed fleeing 
suspect, or as they attempted to rescue a wounded officer. Suspects 
were wielding rifles in 7 cases, and of those, 4 were ambush-style 
attacks. Three of the cases involved multiple officers being shot and 
killed. Standard soft body armor such as level III-A, worn by most 
patrol officers, will not stop a rifle round. The increasing use of 
assault-style rifles against police has given rise to the issuance of 
AR-style patrol rifles, body armor with hard armor plates, and 
ballistic helmets, to be deployed during high threat responses.\1\
---------------------------------------------------------------------------
    \1\ http://www.nleomf.org/assets/pdfs/officer-safety/Primary-
Research-Final-8-2-16.pdf.
---------------------------------------------------------------------------
 Questions From Ranking Member Bennie G. Thompson for Jerry L. Demings
    Question 1a. Recently, we saw two separate instances of lone-wolf 
actors conducting attacks on communities in Minnesota and New York 
City. After the devastating terrorist attack that happened in Orange 
County this summer, how do you go about training for and prevention of 
lone-wolf attacks?
    Question 1b. How does the availability of guns affect the 
complexities involved in protecting against lone-wolf terrorist 
attacks?
    Answer. Response was not received at the time of publication.
    Question 2a. In the past, you expressed concerns about the growing 
number of stolen weapons within your community. Your department has 
been involved in a gun buyback initiative to limit the amount of guns 
falling into the wrong hands.
    Can you tell us how this initiative has worked in your community so 
far?
    Question 2b. How should additional agencies across the country 
participate in similar programs to encourage further gun safety and 
crime prevention?
    Answer. Response was not received at the time of publication.
    Question 3. According to DHS Secretary Jeh Johnson, homeland 
security can not be done without sensible gun control legislation. Do 
you agree with the Secretary?
    Answer. Response was not received at the time of publication.
    Question 4a. The market for illegal firearm trafficking should 
remain a major concern for law enforcement officials to better address. 
Unfortunately, in your community, as well as across the Nation, 
officers have been killed due to suspects' possession of illegal 
firearms.
    How do law enforcement officials deal with individuals who are able 
to possess firearms via straw-buyer purchases?
    Question 4b. Do these individuals pose any unique threats to those 
in their communities?
    Answer. Response was not received at the time of publication.
    Question 5. The International Association of Chiefs of Police has 
previously distributed officer vulnerability tips to limit assaults 
against police officers while on duty. These tips ranged from officers 
wearing their vest, proper vest fit, physical readiness, mental 
readiness, situational awareness, and officers getting to know their 
community. How effective is this kind of guidance when police officers 
are essentially out-gunned by people with illegal and military-style 
firearms?
    Answer. Response was not received at the time of publication.
    Questions From Ranking Member Bennie G. Thompson for John Miller
    Question 1. Mr. Miller, as we saw after 9/11 and as we saw just 
this week after the Chelsea bombing, New York City is resilient. How 
does the NYPD foster and promote a culture of resiliency?
    Answer. Response was not received at the time of publication.
    Question 2. Mr. Miller, thank you for coming. In the wake of this 
weekend's incident in Chelsea, please tell us what type of assistance 
you have received from the Federal Government. Do you consider it to be 
sufficient?
    Answer. Response was not received at the time of publication.
    Question 3. Mr. Miller, in light of the recent police shootings in 
Dallas and the mass shootings in Orlando and San Bernardino, what type 
of changes has NYPD made for its officers?
    Answer. Response was not received at the time of publication.
    Question 4. The International Association of Chiefs of Police has 
previously distributed officer vulnerability tips to limit assaults 
against police officers while on duty. These tips ranged from officers 
wearing their vest, proper vest fit, physical readiness, mental 
readiness, situational awareness, and officers getting to know their 
community. How effective is this kind of guidance when police officers 
are essentially out-gunned by people with illegal and military-style 
firearms?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
